i
ii
                                          TABLE OF CONTENTS
Inspector General’s Message to Congress ................................................................................ 1

TIGTA’s Highlights ..................................................................................................................... 3

Legislative Recommendations ..................................................................................................... 7

TIGTA’s Profile ...................................................................................................................... 9
    Statutory Mandate .................................................................................................................. 9
    Organizational Structure ........................................................................................................ 10
    Authorities .............................................................................................................................. 10

Promote the Economy, Efficiency and Effectiveness of Tax Administration ..................... 11
    American Recovery and Reinvestment Act of 2009 .............................................................. 11
    Systems Modernization of the Internal Revenue Service ....................................................... 13
    Security of the Internal Revenue Service ............................................................................ 16
    Tax Compliance Initiatives ................................................................................................... 18
    Providing Quality Taxpayer Service .................................................................................... 21
    Human Capital ....................................................................................................................... 23
    Erroneous and Improper Payments....................................................................................... 25
    Taxpayer Protection and Rights ............................................................................................. 26
    Processing Returns and Implementing Tax Law Changes During
       the Tax Filing Season .................................................................................................. 29
    Improving Performance and Financial Data for Program and Budget Decisions .................. 32

Protect the Integrity of Tax Administration ............................................................................ 35
     TIGTA’s Investigative Performance Model ....................................................................... 36
     Procurement Fraud ................................................................................................................ 37
     Threats and Assaults Against Internal Revenue Service Facilities and Personnel ............ 39
     Employee Integrity Investigations ......................................................................................... 39
     Employee and Infrastructure Security .................................................................................... 41
     External Attempts to Corrupt Tax Administration ................................................................ 42

Advancing the Oversight of America’s Tax System ................................................................ 47
    American Recovery and Reinvestment Act of 2009 .......................................................... 47
    Taxpayer Assistance Centers ............................................................................................... 48

Awards and Special Achievements ............................................................................................ 51

Audit Statistical Reports .............................................................................................................. 55
     Reports with Questioned Costs .............................................................................................. 55
     Reports with Recommendations that Funds Be Put to Better Use ......................................... 56
     Reports with Additional Quantifiable Impact on Tax Administration .................................. 57

Investigations Statistical Reports ............................................................................................... 59
     Significant Investigative Achievements ................................................................................. 59


                                                                  iii
        Status of Closed Criminal Investigations ............................................................................... 60
        Criminal Dispositions ............................................................................................................ 60
        Administrative Dispositions on Closed TIGTA Investigations ............................................. 60

Appendices
Appendix I – Statistical Reports – Other .................................................................................. 61
    Audit Reports with Significant Unimplemented Corrective Actions .................................... 61
    Other Statistical Reports ........................................................................................................ 65

Appendix II – Audit Products ..................................................................................................... 67

Appendix III – TIGTA’s Statutory Reporting Requirements ............................................... 71

Appendix IV – Section 1203 Standards ..................................................................................... 81

Appendix V – Data Tables Provided by the Internal Revenue Service ............................... 83
    Internal Revenue Service Memorandum ................................................................................ 83
    Report of Employee Misconduct, Summary by Disposition Groups ..................................... 84
    Report of Employee Misconduct, National Summary ........................................................... 85
    Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ....................... 86

Appendix VI – Legislative Recommendations ......................................................................... 87

List of Abbreviations .................................................................................................................... 89




                                                                iv
           INSPECTOR GENERAL’S
           MESSAGE TO CONGRESS
I am pleased to submit this Semiannual Report to Congress,
highlighting the Treasury Inspector General for Tax
Administration’s (TIGTA) many accomplishments in promoting its
mission to provide oversight of the Internal Revenue Service (IRS)
and protect the integrity of Federal tax administration. TIGTA’s
achievements for the six-month period ending September 30, 2009
(the Reporting Period), are showcased through the many noteworthy audits, investigations, and
inspections and evaluations summarized in this report.

Now more than ever, it is critical to our Nation’s future for the IRS to diligently perform its duty
of collecting Federal tax revenues while administering the many economic recovery programs
with which the IRS is charged. We at TIGTA are committed to ensuring that the IRS carries out
its responsibilities to America’s taxpayers as effectively and efficiently as possible and with the
highest level of quality and service.

TIGTA’s combined audit and investigative efforts have recovered, protected and identified
monetary benefits totaling more than $3.8 billion for the Reporting Period and more than $14
billion for all of fiscal year 2009. These results are not unusual for TIGTA, as time and again
our work has resulted in a significant return on investment for American taxpayers. For the
Reporting Period, TIGTA’s Office of Audit completed 86 reports (142 for all of fiscal year 2009)
and our Office of Investigations closed 1,992 investigations (3,527 for all of fiscal year 2009).

Congress’s passage of the American Recovery and Reinvestment Act of 2009 (Recovery Act)
resulted in the immediate need for increased oversight throughout all levels of government. The
Recovery Act established the Recovery Act Accountability and Transparency Board, consisting
of ten Inspectors General from across the Federal Government. TIGTA is one of the entities
with statutory membership on this board. In this role, we will promote integrity and efficiency
for all agencies that received Recovery Act funding, with particular attention to the IRS’s
administration of the many tax credits and other economic stimulus provisions contained in the
Act.

TIGTA stands ready to continue carrying out our important mission of serving the American
people by working to ensure the integrity of Federal tax administration.

                                                 Sincerely,




                                             J. Russell George
                                             Inspector General



TIGTA Semiannual Report to Congress                                                         1
April 1, 2009 - September 30, 2009
2   TIGTA Semiannual Report to Congress
       April 1, 2009 - September 30, 2009
                                  TIGTA’S HIGHLIGHTS
The following table shows the statistical highlights of the Treasury Inspector General for Tax
Administration (TIGTA) for this semiannual reporting period as well as all of Fiscal Year 2009.

                      Number of                                                                   Regulations/
                      Audit                      Increased/     No. of           No. of           Legislative
                      Reports     Cost Savings   Protected      Investigations   Investigations   Requests
                      Completed   Identified     Revenue        Opened           Closed           Reviewed
    April 1, 2009 –
    Sept. 30, 2009        86      $159 million   $3.8 billion        1,812            1,922             379

    FY 2009               142     $9 billion     $4.9 billion        3,504            3,527             581


Examples of High-Profile Cases from TIGTA’s Office of Investigations:

Houston Businessman Sentenced for Bribery of a Public Official1
On May 22, 2009, Ramesh Khilnani was sentenced to two years in prison and three years of
supervised release.2 Khilnani had previously pleaded guilty to bribery of a public official.3

In February 2008, an Internal Revenue Service (IRS) agent met with Khilnani to discuss the
audit of his 2004 through 2007 tax returns. After several meetings, the IRS agent contacted her
supervisor and indicated that she believed Khilnani was attempting to offer her a bribe.4

On March 26, 2008, in conjunction with TIGTA, the IRS agent called Khilnani. Khilnani did not
want to discuss the matter over the phone and suggested a face-to-face meeting. On April 2,
2008, the IRS agent met with Khilnani.5

At the meeting, Khilnani wanted the IRS agent to reduce his tax liability from approximately
$49,000 to $500. In exchange for the reduction, Khilnani would pay the IRS agent $2,500 in
cash for her personal use. Khilnani stated that he knew this was illegal and did not want either
his tax preparer or his wife to find out about the arrangement.6

On April 16, 2008, the IRS agent again met with Khilnani. At this meeting, Khilnani gave the
IRS agent $2,000 in cash. The IRS agent presented Khilnani with two Income Tax Discrepancy
Forms: the original indicating the $49,000 tax liability and a second indicating a $524 tax
liability. Khilnani signed the second form indicating his tax liability and acknowledging the
adjusted amount.7



1
  Source: U.S. Department of Justice Press Release dated May 22, 2009.
2
  Source: Southern District of Texas Sentencing dated May 22, 2009.
3
  Source: Southern District of Texas Plea Agreement dated February 27, 2009.
4
  Ibid.
5
  Ibid.
6
  Ibid.
7
  Ibid.

TIGTA Semiannual Report to Congress                                                                     3
April 1, 2009 - September 30, 2009
Logan Painter Indicted for Threatening to Murder an IRS Employee
On April 21, 2009, Logan Painter was indicted in North Carolina for threatening an IRS Special
Agent8 in the Criminal Investigation Division.9 On April 7, 2009, IRS Special Agent Eric Veater
received a call from confidential informant Logan Painter. Painter told Veater, “I’m gonna off
you!” Veater also received a telephone call from Painter’s defense attorney who advised Veater
that Painter had telephoned his wife and told her, “Goodbye, you’re not going to see me again
and you will be reading about me in the papers.”10

IRS Dallas Lockbox Employee Sentenced for Theft and Embezzlement of Over $485,000 in
Taxpayer Remittance Checks
On April 9, 2009, Emmanuel Ekwuruke was sentenced in Texas to sixty-six months in prison
and four years of supervised release, for theft by a bank employee, theft of public money and
aggravated identity theft.11

Ekwuruke was initially stopped by Mesquite, Texas, police officers who were responding to a
911 call from a bank regarding a possible forged check. After arresting Ekwuruke, the police
officers impounded and inventoried a vehicle located in the bank parking lot that was registered
to Ekwuruke and in which an identification card was hanging from the rear view mirror
identifying Ekwuruke. Found in the vehicle were 21 checks, totaling approximately $485,539
that had been sent to the IRS Dallas Lockbox.12

Ekwuruke was subsequently indicted by a Federal grand jury and convicted at trial.

Woman Sentenced to 96 Months in Prison for Conspiracy and Interference with the IRS
On June 2, 2009, Jeanne Herrington was sentenced in Ohio to ninety-six months in prison and
three years of supervised release and ordered to pay a $200 special assessment.13

Herrington had been found guilty of conspiracy and interfering with the IRS. She conspired with
others to defraud the United States by impeding the lawful governmental functions of the IRS in
the ascertainment, evaluation, assessment and collection of income taxes. Among other things,
Herrington promoted and sold abusive trusts, prepared and advocated the preparation of false
Federal income tax returns, submitted and/or assisted in the submission of false and fraudulent
documentation to the IRS in an effort to eliminate tax liabilities and harassed IRS employees,
and organized and/or attended meetings to discuss methods of tax evasion and evading the
payment of tax liabilities with fictitious financial instruments.14

In addition, Herrington corruptly endeavored to obstruct or impede the due administration of the
Internal Revenue laws by preparing and submitting to the IRS fraudulent Forms 1099, which
falsely reported that individuals associated with the Federal criminal tax investigation of

8
  Source: Western District of North Carolina Indictment dated April 21, 2009.
9
  Source: Western District of North Carolina Affidavit in Support of a Criminal Complaint dated April 8, 2009.
10
   Source: Western District of North Carolina Affidavit in Support of a Criminal Complaint dated April 8, 2009.
11
   Source: Northern District of Texas Judgment in Criminal Case dated April 9, 2009.
12
   Source: Affidavit in support of criminal complaint dated June 6, 2008.
13
   Source: Northern District of Ohio Judgment in a Criminal Case dated June 2, 2009.
14
   Source: Northern District of Ohio Superseding Indictment dated April 7, 2008.

4                                                              TIGTA Semiannual Report to Congress
                                                                  April 1, 2009 - September 30, 2009
Herrington had engaged in reportable transactions. Herrington submitted fraudulent 1099s for
three different people. Two of the fraudulent 1099s were for $1,000,000 each and one was for
$300.15

Examples of High-Profile Audits from TIGTA’s Office of Audit:
Inadequate Data on Paid Preparers Impedes Effective Oversight (Reference No. 2009-40-098)
Every year, more than one-half of all taxpayers pay someone else to prepare their income tax
returns. Currently, there are no national standards that a preparer is required to satisfy before
selling tax preparation services to the public. Anyone, regardless of training, experience, skill, or
knowledge, is allowed to prepare Federal income tax returns for others for a fee. Furthermore,
the IRS cannot determine the population of preparers or if the preparers are compliant with their
own tax obligations as well as all of the tax laws and regulations. In order for the IRS to
facilitate tax administration and provide effective oversight of tax return preparers, TIGTA made
recommendations that include assigning a unique identifying number to each preparer and
establishing an effective management information system. IRS management agreed to take
appropriate corrective actions.

More Progress Is Needed to Reduce the Millions Paid in Interest on Improperly Frozen
Refunds (Reference No. 2009-30-106)
If a taxpayer’s account has a filed tax return and a credit balance exceeding a certain dollar
threshold, the IRS’s computer system places a freeze on the account to prevent it from
automatically refunding or offsetting to another liability. This freeze is intended to alert the IRS
that a refund, if appropriate, must be issued manually. The IRS computer system does not allow
for the number of digits needed to automatically issue refunds over a certain amount. In
September 1999, TIGTA reported problems with the release of large dollar frozen refunds, for
which the IRS incurred additional interest expense of $17.5 million on forty-four taxpayer
accounts. TIGTA made several recommendations to improve the resolution of frozen refunds.
In March 2002, TIGTA reported that the IRS had not implemented the recommendations as
agreed. Instead, in January 2001, the IRS increased the threshold for automatically freezing
refunds. The threshold increase did not solve the problem, resulting in approximately $186
million in delayed refunds and about $15 million in additional interest expense. TIGTA again
made recommendations to improve the resolution of frozen refunds. The IRS subsequently
reported that it had implemented them. In this follow-up review, TIGTA found fewer accounts
with a large dollar refund freeze. However, the percentage of accounts with credits that continue
to be improperly frozen remains high, and the interest the IRS will pay on these accounts is
substantial because the IRS has yet to implement the recommendations from prior TIGTA
reviews.

Increased Oversight Is Needed to Prevent Inadvertent Disclosure of Personally Identifiable
Information (Reference No. 2009-30-059)
Identity theft is the number one consumer complaint nationwide, and each year it affects more
than 10 million Americans. More than 130 million taxpayers entrust the IRS with sensitive
financial and personal data, much of it on paper documents. Taxpayers need to be assured that
the IRS is taking every precaution to protect their private information from inadvertent

15
     Ibid.

TIGTA Semiannual Report to Congress                                                         5
April 1, 2009 - September 30, 2009
disclosure. TIGTA found that: responsibilities associated with the IRS’s waste disposal
program need to be clearly defined and delineated and that the IRS needs greater standardization
over contracts for the disposal of sensitive waste. TIGTA also found that policies related to the
protection and disposal of paper documents containing sensitive information need to be more
widely communicated to IRS employees and contractors. At every location visited, documents
containing personally identifiable or other sensitive information were found in regular waste
containers and/or dumpsters. TIGTA made several recommendations to improve controls over
sensitive data. IRS management agreed with all of TIGTA’s recommendations.

Examples of Significant Legislation Reviewed by the Office of Chief Counsel:
S.139, Data Breach Notification Act and S.1490, Personal Data Privacy and Security Act of
2009
The Data Breach Notification Act (S.139) would require Federal agencies and business entities
to disclose security breaches, such as compromises of computerized data and of sensitive
personally identifiable information (PII), and to notify those affected. It creates civil penalties
for violations. The Personal Data Privacy and Security Act of 2009 (S.1490) is a bill intended to
prevent and mitigate identity theft. The bill’s provisions would require notice of security
breaches, which are defined as compromises of computerized data. In addition, S.1490 would
create new criminal penalties for unauthorized access to sensitive PII.

Both bills mitigate the notice requirement, in some circumstances, by providing a law
enforcement exemption, but require an agency to go through the U.S. Secret Service (USSS),
which is the final arbiter of their use. TIGTA’s responses to Treasury’s request for comments
identified concerns with various provisions. Among other things, TIGTA’s concerns focused on
the bills’ failure to recognize the Inspectors General’s (IG) role in security breaches. Under the
terms of the bills, IGs, who are uniquely situated to provide the oversight necessary to prevent
the type of breach, abuse, or misuse that these bills intend to prevent, have not been included in
the notification provisions. In addition, both bills fail to take into account various Federal
confidentiality statutes that may prevent or limit the information that may be provided to the
USSS in connection with the law enforcement exemption provision. TIGTA also raised concern
with the bills’ definition of “personally identifiable information,” as it appears to be different
from the definition propounded by the Office of Management and Budget for this term.

S.372 and HR.1507, Whistleblower Protection Enhancement Act of 2009
TIGTA reviewed several versions of this Act, which strengthens whistleblower protections for
Federal employees who expose government waste, fraud, and abuse of authority. TIGTA agreed
with concerns raised by the Council of Inspectors General on Integrity and Efficiency and the
Department of Justice. Most of TIGTA’s concerns were addressed by the latest version of the
substitute for S.372, Whistleblower Protection Enhancement Act of 2009. However, TIGTA
commented on the potential budgetary impact of the unfunded mandate contained in section 120,
Whistleblower Protection Ombudsman, which amends section 3(d) of the IG Act to require each
IG to “designate a Whistleblower Protection Ombudsman who shall advocate for the interests of
agency employees or applicants who make protected disclosures of information, educate agency
personnel about prohibitions on retaliation for protected disclosures, and advise agency
employees, applicants, or former employees who have made or are contemplating making a
protected disclosure.”

6                                                     TIGTA Semiannual Report to Congress
                                                         April 1, 2009 - September 30, 2009
               LEGISLATIVE RECOMMENDATIONS
Protect Tax-Related Whistleblowers Against Retaliation and Provide Specific Relief to
Informants Who Are Retaliated Against. The whistleblower provision in the Tax Relief and
Health Care Act of 2006 provides a significant financial incentive for individuals with
knowledge of tax noncompliance. Protection against retaliation for reporting such
noncompliance would increase the likelihood that employees would come forward. Without
such protection for employees, the risk of retaliation might outweigh the incentive of the reward.
IRS management did not take a position on this recommendation.

Mandate E-filing for Paid Preparers. Federal law currently prohibits the IRS from requiring
e-filing of individual income tax returns. A Federal mandate for paid preparers to e-file
individual income tax returns would result in an increase of 26.9 percent in e-filed tax returns.
Most paid preparers who filed paper tax returns used an electronic tax software preparation
package, and 70 percent also e-filed at least one tax return, which indicates a familiarity with the
electronic preparation and e-filing process. IRS management agreed with this recommendation.
Mandating e-filing for Paid Preparers would reduce paper tax return processing costs by
$66.6 million annually with potential five-year cost savings totaling approximately $333
million.

Improve the Administration of Education Credits By Providing the IRS Math Error
Authority to Disallow Claims for the Hope Credit That Are Taken for More Years Than
Allowed By Law. Despite provisions in the law allowing the Hope Credit for only two tax
years, TIGTA identified approximately 203,000 taxpayers who claimed the Hope Credit for the
same student for three consecutive tax years ending in 2006. IRS management agreed with this
recommendation. Providing math error authority would help to prevent the payment of $398
million in ineligible claims for the Hope Credit to an estimated 505,041 taxpayers over a three-
year period.

Change the Reporting Requirements for Educational Institutions to Produce Forms
1098-T, Tuition Statement, or Eliminate the Requirement for the Form Altogether. As
currently administered, Form 1098-T is not meeting its intended purpose. The amount of
education credits claimed by taxpayers often does not correlate to the amount of qualified tuition
and related expenses reported on Form 1098-T because the law allows educational institutions to
report either the amounts billed or the amounts paid to the educational institution. As a result,
the IRS does not use the form in its compliance programs and does not accept it as
documentation to support claims for education credits. IRS management agreed with this
recommendation. We estimate that educational institutions expend approximately 25.5 million
hours to complete Forms 1098-T and $19.1 million to mail the forms to students over a five-
year period.

A full list of legislative recommendations and the associated audit reports are shown in Appendix
VI.




TIGTA Semiannual Report to Congress                                                        7
April 1, 2009 - September 30, 2009
8   TIGTA Semiannual Report to Congress
       April 1, 2009 - September 30, 2009
                               TIGTA'S PROFILE
           IGTA provides independent oversight of Department of the Treasury matters

   T       involving IRS activities, the IRS Oversight Board and the IRS Office of Chief
           Counsel. Although TIGTA is placed organizationally in the Treasury Departmental
Offices and reports to the Secretary of the Treasury and to Congress, TIGTA functions
independently from the Departmental Offices and all other offices and bureaus within the
Department of the Treasury.

TIGTA’s work is devoted to all aspects of
activity related to the Federal tax system            Statutory Mandate
as administered by the IRS. By
identifying and addressing the IRS’s
management challenges, implementing the       Protect against external attempts to
President’s management agenda and the         corrupt or threaten IRS employees.
priorities of the Department of the           Provide policy direction and conduct,
Treasury, TIGTA protects the public’s         supervise and coordinate audits and
confidence in the Federal tax system.         investigations related to IRS programs
                                              and operations.
TIGTA’s organizational structure is           Review existing and proposed
comprised of five functional offices: the     legislation and regulations related to
Office of Investigations; the Office of       IRS programs and operations and make
Audit; the Office of Inspections              recommendations concerning the
and Evaluations; the Office of Mission        impact of such legislation or
Support; and the Office of Chief Counsel      regulations.
(see chart on page 10).                       Promote economy and efficiency in the
                                              administration of tax laws.
TIGTA conducts audits, investigations,
and inspections and evaluations designed      Prevent and detect fraud and abuse in
to:                                           IRS programs and operations.
                                              Inform the Secretary of the Treasury
   •   Promote the economy, efficiency        and Congress of problems and
       and effectiveness of tax               deficiencies identified and of the
       administration; and                    progress made in resolving them.
   •   Protect the integrity of tax
       administration.




TIGTA Semiannual Report to Congress                                                    9
April 1, 2009 - September 30, 2009
                                      Organizational Structure



                                                 Inspector General

                                                  Principal Deputy
                                                 Inspector General




   Deputy                     Deputy                    Deputy                    Associate
  Inspector                  Inspector                                            Inspector                    Chief
                                                       Inspector
 General for                General for                                          General for                  Counsel
                                                      General for
Investigations                 Audit                  Inspections                  Mission
                                                          and                      Support
                                                      Evaluations




                                                    Authorities

TIGTA has all of the authorities granted under the Inspector General Act of 1978, as amended.16
TIGTA has access to tax information in the performance of its tax administration responsibilities.
TIGTA also has the obligation to report potential criminal violations directly to the Department
of Justice. TIGTA and the Commissioner of Internal Revenue have established policies and
procedures delineating responsibilities to investigate potential criminal offenses under the
Internal Revenue laws. In addition, the IRS Restructuring and Reform Act of 1998 (RRA 98)17
amended the Inspector General Act of 1978 to give TIGTA statutory authority to carry firearms,
execute and serve search and arrest warrants, serve subpoenas and summonses, and make arrests
as set forth in Section 7608(b)(2) of the Internal Revenue Code (I.R.C.).




16
  5 U.S.C.A. app. 3 (West Supp. 2008).
17
  Public Law No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19
U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C. 38 U.S.C., and 49 U.S.C.).

10                                                                    TIGTA Semiannual Report to Congress
                                                                         April 1, 2009 - September 30, 2009
    PROMOTE THE ECONOMY, EFFICIENCY AND
     EFFECTIVENESS OF TAX ADMINISTRATION

      IGTA’s Office of Audit (OA) strives to promote the economy, efficiency and effectiveness

T     of tax administration. TIGTA provides recommendations to improve IRS systems and
      operations while ensuring fair and equitable treatment of taxpayers. TIGTA’s
      comprehensive and independent performance and financial audits of IRS programs and
operations primarily address mandated reviews and high-risk challenges facing the IRS.

The IRS’s implementation of audit recommendations results in:

       •   Cost-savings and increased or protected revenue;
       •   Reduction of taxpayer burden;
       •   More efficient use of resources;
       •   Protection of taxpayer privacy and security;
       •   Protection of resources/reliability of information; and
       •   Protection of taxpayer rights and entitlements.

For Fiscal Year (FY) 2009, OA realigned its staff to enable it to continue to provide quality audit
products as well as a broader perspective and assessment of IRS operations and results. This
realignment better mirrors the IRS’s processes and provides improved OA coverage of all of the
major IRS goals and initiatives.

Each year, TIGTA’s OA identifies and addresses the major management challenges facing the
IRS. The OA places audit emphasis on statutory coverage required by the RRA 98 and other
laws, and areas of concern to Congress, the Secretary of the Treasury, the Commissioner of the
IRS, and other key stakeholders.

American Recovery and Reinvestment Act of 2009
During FY 2009, OA developed an Oversight Program Plan for the American Recovery and
Reinvestment Act (Recovery Act). The Recovery Act is intended to jumpstart the American
economy, create or save millions of jobs, and address many of the challenges facing our country.
Included in the Recovery Act are many tax law provisions that the IRS is charged with
administering. In addition, TIGTA received $7 million in separate Recovery Act funding
through September 30, 2013, to be used in oversight activities of IRS programs.

OA’s Oversight Program Plan identifies its planned actions to address the Recovery Act. In
determining the scope of the Recovery Act on tax administration, OA reviewed the Recovery
Act legislation, the Office of Management and Budget (OMB) Implementing Guidance, and
summaries of key IRS-related provisions prepared by the Senate Finance and House Ways and
Means Committees, IRS Web sites, and the Department of the Treasury (Treasury) Recovery Act
Program information. OA’s Oversight Program Plan is expected to evolve over the next four and
one-half years and will be updated periodically to reflect OA’s current Recovery Act actions.


TIGTA Semiannual Report to Congress                                                      11
April 1, 2009 - September 30, 2009
The Recovery Act is a far-reaching effort that includes many tax law changes. The impact of
some of these changes will not be apparent for several years. As part of its Recovery Act
oversight, TIGTA will continue to coordinate its activities with appropriate external oversight
agencies and include the impact of these provisions in its strategic planning activities. TIGTA
and the Treasury Office of Inspector General (TIG) agreed to coordinate oversight activities in
two key Recovery Act areas: Low-Income Housing Grants and Specified Energy Property
Grants. Both TIGTA and TIG have oversight responsibility in these two areas. Furthermore,
TIGTA has started or has plans to start audits in several Recovery Act-related areas, such as:
reporting standards for Recovery Act contracts; expansion of the Health Coverage Tax Credit;
extension of the Net Operating Loss carryback period for small businesses; tax-exempt bond
provisions; and implementation of the Making Work Pay Credit.

The following summary highlights the Recovery Act audit completed during this six-month
reporting period.

First-Time Homebuyer Credit (Reference No. 2009-41-144)
Congress allocated $13.6 billion for the First-Time Homebuyer Credit (Credit) in the Housing
and Economic Recovery Act of 2008. The Joint Committee on Taxation estimated that more
than $4.3 billion more would be paid to first-time homebuyers in FYs 2009 and 2010 as a result
of the revisions in the Recovery Act.

The IRS developed controls to identify many questionable claims for the Credit. However, some
key controls to prevent individuals from erroneously claiming the Credit were missing. Despite
recommendations made in a November 25, 2008, memorandum as part of a prior TIGTA audit,
the IRS did not require taxpayers to provide documentation to substantiate the purchase of a
home.

Many taxpayers erroneously claiming the Credit will be identified by recently implemented IRS
filters and subject to pre-refund audits. However, TIGTA identified 70,005 taxpayers whose tax
returns were processed prior to the implementation of these filters. Also, 48,580 taxpayers who
may not have been aware of the changes to the Credit included in the Recovery Act did not claim
the full amount to which they were entitled.

TIGTA recommended that the IRS develop a plan to address questionable claims for the Credit
that were processed prior to IRS examination filters being implemented. TIGTA also
recommended that the IRS monitor accounts of taxpayers who purchased homes in calendar year
2009 and claimed Credits of $7,500 to determine if the taxpayers amend their returns with
respect to the Credit. If not, the IRS should contact these taxpayers to inform them that they may
be entitled to an additional refund if the purchase price of their home was greater than $75,000.

IRS management agreed with the recommendations and plans to take corrective actions.




12                                                   TIGTA Semiannual Report to Congress
                                                        April 1, 2009 - September 30, 2009
The following summaries highlight significant audits completed in each of the areas of emphasis
during this six-month reporting period.


                Audit Emphasis Areas for April through September 2009

 •   Systems Modernization of the Internal Revenue Service
 •   Security of the Internal Revenue Service
 •   Tax Compliance Initiatives
 •   Providing Quality Taxpayer Service
 •   Human Capital
 •   Erroneous and Improper Payments
 •   Taxpayer Protection and Rights
 •   Processing Returns and Implementing Tax Law Changes During the Tax Filing Season
 •   Improving Performance and Financial Data for Program and Budget Decisions


Systems Modernization of the Internal Revenue Service
The Business Systems Modernization Program (Modernization Program) is a complex effort to
modernize IRS technology and related business processes. For the IRS, modernizing technology
has been an ongoing challenge. The Modernization Program accomplishments extend from the
development of Program Management Offices and enterprise architecture to the implementation
of systems and applications that improve the IRS’s ability to administer and enforce compliance
with the Nation’s tax laws, while providing quality customer service. The Modernization
Program has also continued to develop and deploy modernized applications. New capabilities
include enhancements to the Customer Account Data Engine (CADE) that incorporated new tax
law provisions including the processing of Economic Stimulus Act of 2008 payments, and the
ability of IRS employees to access taxpayer account information through the Account
Management Services system.

The IRS has recognized that it faces significant challenges in meeting the requirements of the
next phase of project development and systems integration. The immediate challenge is the
future of CADE, the acknowledged centerpiece throughout the life of the Modernization
Program. The IRS is considering using elements from the Individual Master File and the current
CADE to significantly reengineer the IRS tax account management process. The continued
improvement to managing individual taxpayer accounts will be curtailed until the use of the
reengineered database is implemented and made available for integration with other systems and
applications. Furthermore, the challenge in modernizing the management of business taxpayer
accounts has yet to be considered.

Annual Modernization Assessment (Reference No. 2009-20-136)
The objective of the Modernization Program is to address the complex effort to modernize IRS
technology and related business processes, manage the inherent risks of modernization, and
deliver the level of service that American taxpayers expect.

For the past year, Modernization Program management development activities generally have
met the objectives of the IRS’s Modernization Program. These activities included the

TIGTA Semiannual Report to Congress                                                   13
April 1, 2009 - September 30, 2009
development and implementation of strategic planning and program management efforts in the
form of the Information Technology Modernization Vision and Strategy, Enterprise Data
Access and Data Strategy Implementation Programs, and a tiered program management
structure designed to act as an enterprise governance model.

The past year’s Modernization Program performance did not continue the trend of improvement
it demonstrated in the prior three years in delivering projects within estimated ranges for
development costs and schedule variance. The IRS also has experienced a turnover of
executives that challenges the Program’s continued long-term success. Furthermore, a control
process to manage the Modernization and Information Technology Services organization’s
Highest Priority Initiatives process has been discontinued. The Enterprise Services organization
is currently developing processes that will be used to replace the Highest Priority Initiatives
process.

The IRS recognizes the need to incorporate necessary program management disciplines and has
plans to implement a process-improvement strategy. This strategy will allow the Modernization
Program to continue to improve its management practices by incorporating industry best
practices.

TIGTA provided this assessment of the Modernization Program status and accomplishments
through FY 2008 but did not offer specific recommendations. IRS management responded that
they were pleased that the annual assessment recognized the accomplishments in providing
quality customer service. The IRS also appreciated acknowledgment of the continued
development and deployment of modernized applications. In response to TIGTA’s comments
on the use of the Information Technology Modernization Vision and Strategy planning process,
the IRS stated that it expanded the breadth of the business technology included in this strategy
and plans to establish a pre-selection process for investment planning.

My IRS Account Project (Reference No. 2009-20-102)
The My IRS Account project was designed to improve the IRS’s ability to meet taxpayers’ needs
by developing secure online procedures for electronic access to tax return information. The
intent of the project was to develop a plan that would provide taxpayers a means to securely view
their tax account and return information online, as well as provide tools for self-service
assistance. It was also intended to be used as a prototype for future delivery of new Web-based
projects.

Successful implementation of this effort is essential to support taxpayers’ abilities to
electronically fulfill their tax responsibilities and is critical to the long-term success of the IRS
Modernization Program. However, the IRS’s decision to terminate deployment of the My IRS
Account project puts the goals of the project at risk, as well as the approximately $10 million
spent to develop it.

TIGTA recommended that the IRS develop a long-term strategy for the My IRS Account project.
If the project is restarted, it should be quickly deployed. This will allow the IRS to realize the
maximum benefit from its $10 million investment by reusing the hardware and functionality
developed for My IRS Account Release 1. TIGTA also recommended that the IRS ensure that a


14                                                       TIGTA Semiannual Report to Congress
                                                            April 1, 2009 - September 30, 2009
strategy to develop and deploy an enterprise-wide electronic authentication solution is developed
as quickly as possible to allow online projects that require secure access, such as the My IRS
Account project, to be deployed without experiencing similar costly delays, and ensure formal
project termination procedures are developed for information technology projects that are shut
down prior to deployment.

IRS management agreed with TIGTA’s recommendations and has taken or plans to take
appropriate corrective actions.

Uncertainties Affecting the Account Management Services Project (Reference No. 2009-20-
071)
The Account Management Services (AMS) system will provide IRS employees with immediate
access to taxpayer account data and the ability to perform instantaneous transaction processing
and daily account settlement. IRS management needs to decide what future project
development plans will be followed and improve project funding controls. Addressing these
issues will allow the AMS system to help meet the ongoing need to modernize tax
administration processes, applications, and technologies, and enhance the level of service
provided to the Nation’s taxpayers.

                                                        TIGTA recommended that AMS project
 “The IRS must make several strategic decisions         management activities follow the
 that will affect the future of the Account             appropriate governance process to
 Management Services systems,” commented J.             redirect remaining AMS funding in order
 Russell George, the Treasury Inspector General         to complete Releases 1.3 and 2.1. To
 for Tax Administration. “The longer those              address the need to improve controls
 decisions are delayed, the greater the risk of         over project funding, TIGTA
 costly rework.”                                        recommended that the IRS direct project
                                                        management teams and contracting
officers to propose modernization task orders with the ability to readily account for system
development activity funding on a release basis. In addition, actions should be taken to
reinforce existing governance procedures to executives and managers about release-specific
project funding. Training and desk procedures on the proper use of release-specific project
funding should also be provided, including steps for preparing, reviewing, and approving
requisitions.

IRS management agreed with the recommendations and has taken or plans to take appropriate
corrective actions.

Efforts to Develop a Web-based Portal Environment Were Not Successful (Reference No.
2009-20-079)
The use of the Internet is critically important to the IRS’s tax administration mission of
delivering top-quality service to all taxpayers. Internet portals allow taxpayers and tax
practitioners to submit and retrieve tax-related and general information and electronically file
tax returns. Although the initial attempt to develop a new portal environment terminated
unsuccessfully, the IRS subsequently hired a contractor to assist in the development of an
enterprise portal business strategy. The success of this effort is important in order to provide


TIGTA Semiannual Report to Congress                                                       15
April 1, 2009 - September 30, 2009
taxpayers with both continuous access to IRS data and information and the ability to
electronically fulfill their tax responsibilities.

TIGTA recommended that the IRS develop a process to ensure that new projects seeking
approval and funding during the information technology governance process, and which are not
part of the Modernization Vision and Strategy process, are properly identified and their portal
needs are considered. The new process should be similar to existing procedures to ensure that a
uniform analysis is conducted for projects that are not part of the Modernization Vision and
Strategy process.

IRS management agreed with TIGTA’s recommendation and plans to take appropriate corrective
action.

Security of the Internal Revenue Service
Each year, millions of taxpayers entrust the IRS with their sensitive financial and personal data
that are stored in and processed by IRS computer systems. The risk that taxpayers’ identities
could be stolen by exploiting security weaknesses in the IRS’s computer systems continues to
increase, as does the risk that IRS computer operations could be disrupted. Both internal factors
(such as the increased connectivity of computer systems and greater use of portable laptop
computers) and external factors (such as the volatile threat environment related to increased
phishing scams and hacker activity) contribute to these risks.

Progress Is Slower than What Was Reported for the Weaknesses Identified in the HSPD-12
Program Office (Reference No. 2009-20-084)
The Homeland Security Presidential Directive 12 (HSPD-12) established a new standard for
issuing and maintaining identification badges for Federal Government employees. The
HSPD-12 Program Management Office (PMO) is making slow progress in issuing the badges to
employees and contractors. In addition, the number of badges that have been issued is less than
what has been reported to the OMB and Treasury officials. Issuing the badges is critical to
improving the future security over Treasury facilities, computer systems, and critical processes,
such as collecting tax revenues and issuing refunds to taxpayers.

TIGTA recommended that to ensure progress is accurately reported, the HSPD-12 Executive
Steering Committee should instruct the HSPD-12 program manager to: 1) continue reporting the
program as being behind schedule and report to the OMB a revised estimated date that all
employees and contractors will be issued badges; and 2) define badges issued as badges that
have been activated and given to employees or contractors, report to the OMB the total
cumulative number of badges that have been issued to employees and contractors, and include all
contractors and seasonal employees in the total Treasury population as long as these individuals
are employed by the Treasury.

IRS management disagreed with TIGTA’s recommendations but took some corrective actions.
The IRS reported to the OMB a revised estimated completion date of March 2010. However,
the IRS stated that it would continue to use its current definition of “issued,” continue its current
reporting methods, no longer attempt to issue badges to seasonal employees, and continue to
exclude contractors from the Treasury population until a viable method of uploading

16                                                     TIGTA Semiannual Report to Congress
                                                          April 1, 2009 - September 30, 2009
contractors’ personal information into the General Services Administration database is
implemented.

TIGTA continues to believe that the PMO’s definition of “issued” significantly overstates the
progress of the HSPD-12 program. TIGTA also believes the technical challenges in issuing
badges to contractors do not justify excluding them from the Treasury population.

Improvement Is Needed for Computer System Access Controls Over Contractors (Reference
No. 2009-20-108)
The IRS uses contractors to perform a variety of information technology functions, such as
developing applications for IRS business operations and maintaining computer operations.
To perform these functions, contractors are granted access to IRS computer systems. However,
some contractors who no longer had a business need continued to have access to active user
accounts on IRS systems. When contractors are allowed to have unnecessary access to
computer systems, the IRS increases the risks of exposing taxpayer data to unauthorized
disclosure and to disruption of system operations.

TIGTA recommended that
the IRS: 1) provide                 “When contractors are allowed to have unnecessary
appropriate communications          access to IRS computer systems, the risk of exposing
to all Contracting Officer’s        taxpayer data to unauthorized disclosure and
Technical Representatives           disrupting system operations is substantially
(COTR) and managers                 increased,” commented J. Russell George, the
reinforcing the need to ensure      Treasury Inspector General for Tax Administration.
that system access is revoked
when contractors leave the IRS and that separation of duties (the practice of dividing the steps in
a system function among different individuals) is followed; 2) enforce current procedures on all
systems by configuring systems to automatically disable and/or delete user accounts when they
are not accessed for the appropriate number of days; 3) provide appropriate communications to
all COTRs and managers to remind them that they have the primary responsibility for providing
prompt notification to the responsible organization of any contractor status changes; 4) provide
appropriate communications to COTRs and managers that the Online 5081 system is the primary
system used for authorizing and approving requests for any system access and that system access
should not be granted until a contractor or employee has successfully completed a background
investigation; and 5) improve accountability over employee and manager adherence with
security policies and procedures over contractor system access.

IRS management agreed with TIGTA’s recommendations and plans to take appropriate
corrective actions.

Processing Requests for Tax Returns and Transcripts of Tax Returns (Reference No. 2009-40-
140)
Identity theft is the number one consumer complaint. Identity theft occurs when someone uses
personally identifiable information, such as an individual’s name or Social Security Number
(SSN), to commit fraud and other crimes. Taxpayers need to be assured that the IRS is taking
every precaution to protect their private information from inadvertent disclosure.


TIGTA Semiannual Report to Congress                                                      17
April 1, 2009 - September 30, 2009
Taxpayers who submit Form 4506, Request for Copy of a Tax Return, or Form 4506-T, Request
for Copy of a Tax Return Transcript, are at risk of unauthorized disclosures of taxpayer
information. As a result, TIGTA recommended that the IRS clarify guidelines to require an
accurate name and SSN before Forms 4506 and 4506-T can be processed. TIGTA also
recommended that internal controls be developed and training provided to ensure that Return and
Income Verification Services units: 1) use the Transcript Delivery System (an IRS system used
to house taxpayers’ account information) automated process to mail transcripts; 2) send copies of
tax returns and transcripts only to the address of record; and 3) properly maintain requests for
copies of tax returns and transcripts. Guidelines should also be developed to process requests for
taxpayers who are victims of identity theft, the user fee for e-filed tax returns should be reduced
or eliminated, and the IRS’s Web site (IRS.gov) and Form 4506-T should be updated to
prominently display the option and benefits of ordering a transcript using the Integrated
Customer Communications Environment, an automated touch-tone telephone system that permits
taxpayers to resolve tax account issues and obtain tax information.

The IRS agreed with most of TIGTA’s recommendations and plans to take appropriate
corrective actions. The IRS did not agree with the recommendation to reduce or eliminate the
user fee for requesting copies of e-filed tax returns. The IRS believes the costs to provide
electronic printouts to taxpayers justify the user fee.

TIGTA believes that the cost to process requests for a printout of an e-filed tax return may be
significantly lower than the cost to process copies of tax returns submitted on paper. The cost of
providing printouts of e-filed tax returns is comparable to providing printouts of transcripts,
which are free.

Tax Compliance Initiatives
Tax compliance initiatives include administering tax regulations, collecting the correct amount of
tax for businesses and individuals, and overseeing tax-exempt and government entities for
compliance. Increasing voluntary compliance and reducing the tax gap18 are currently the focus
of IRS initiatives. Nevertheless, the IRS is facing significant challenges in obtaining more-
complete and timely data, as well as developing the methods necessary for interpreting the data.
The IRS must continue to seek accurate measures for the various components of the tax gap and
the effectiveness of the actions taken to reduce it. In addition, while the IRS regularly
encounters lax governance practices on the part of tax-exempt entities, it must remain vigilant in
ensuring that the privilege of tax-exemption is not abused.

The Treasury and the IRS developed a multiyear strategy for improving compliance and
reducing the tax gap. However, the strategy is dependent on overcoming several high-risk
challenges. The strategy is significantly more comprehensive and detailed than previous efforts.
The long-term success of the strategy will, in large part, be dependent on addressing several risk
factors, some of which are beyond the IRS’s control. As a result, broader strategies and better
research may be needed to determine what actions are most effective in addressing
noncompliance.

18
  The tax gap is the difference between the amount of tax that taxpayers should pay and the amount that is paid
voluntarily and on time.

18                                                             TIGTA Semiannual Report to Congress
                                                                  April 1, 2009 - September 30, 2009
Additional Steps Are Still Needed for the Proper Reporting of Farm Income (Reference No.
2009-30-068)
The IRS annually receives
thousands of information returns      “The filing of information returns is central to the success of
reporting Commodity Credit            the Nation’s voluntary tax system. Information returns allow
Corporation (CCC) income              the IRS to more-economically and efficiently detect and pursue
payments that it is unable to use     noncompliant taxpayers who can create unfair burdens on
in determining whether farmers        honest taxpayers and diminish the public’s respect for the
filed tax returns or reported the     Federal tax system,” commented J. Russell George, the
income reflected on the               Treasury Inspector General for Tax Administration.
statements. Because the
information returns are unable to be used, opportunities exist for farmers to avoid the scrutiny of
the IRS through underreporting income and not filing tax returns. This creates unfair burdens on
honest taxpayers and diminishes the public’s respect for the tax system.

TIGTA recommended that the IRS coordinate with United States Department of Agriculture
officials to minimize the number of information returns submitted with mismatched names and
identification numbers and initiate actions to develop compliance strategies for ensuring more
CCC income payments are properly reported.

IRS management agreed with TIGTA’s recommendations and has planned appropriate corrective
actions. However, IRS management stated that the outcome measures in the report totaling
approximately $94 million over five years may be overstated because of several factors. After
considering the IRS’s comments, TIGTA maintains that the outcome measures in the report are
reasonable.

A Corporate Approach Is Needed for a More Effective Tax-Exempt Fraud Program
(Reference No. 2009-10-096)
In response to prior TIGTA reports, each of the IRS’s Tax Exempt and Government Entities
(TE/GE) Division offices implemented changes to their fraud programs. This resulted in
significantly more fraud
development cases, of which        “The Tax Exempt Division has made significant
most were from one office.         progress in detecting and preventing fraud,” stated
However, a more corporate          J. Russell George, the Treasury Inspector General for
approach with centralized          Tax Administration. “However, the IRS should
oversight is needed to provide     ensure that all of the Division’s offices are effectively
for a more-effective TE/GE         implementing anti-fraud programs.”
Division fraud program.
TIGTA believes an effective fraud program will provide greater assurance that the trust placed in
the tax-exempt sector by taxpayers and the good work done by most tax-exempt organizations
are not tarnished.

TIGTA recommended that the IRS develop and implement a corporate fraud approach with
centralized oversight for the TE/GE Division and ensure that all TE/GE Division offices follow
IRS procedures and contact the Small Business/Self-Employed Division Fraud Office to



TIGTA Semiannual Report to Congress                                                      19
April 1, 2009 - September 30, 2009
determine whether cases with affirmative indications of fraud should be pursued as fraud
development cases.

IRS management agreed with TIGTA’s recommendations and has planned appropriate corrective
actions.

Deficiencies Exist with Whistleblower Claims (Reference No. 2009-30-114)
The IRS’s Whistleblower Program provides an opportunity to recover potentially billions of
dollars in taxes and related penalties and interest based on information provided by claimants.
The Tax Relief and Health Care Act of 200619 provided increased awards to individuals for
information that leads to the detection and punishment of persons guilty of violating Internal
Revenue laws. This Act created a new type of claim for referrals of $2 million or more. Since
the Act’s passage, the IRS has seen significant growth in claims. In 2008, the IRS received
claims alleging more than $65 billion in underreported income. However, without effective
control over and timely processing of these claims, the success of the IRS’s Whistleblower
Program could be diminished.

TIGTA recommended that the IRS ensure that reporting capabilities are included in the newly
implemented single inventory control system (a system for tracking and controlling
whistleblower claims) and perform a physical reconciliation of claim information to ensure that
the information captured from existing systems and input into the new system is accurate. In
addition, written procedures with timeliness standards should be established and processes to
monitor the timely processing of claims should be developed.

TIGTA also recommended that legislation is needed to ensure that informants are protected
against retaliation by their employers and to provide specific relief to informants who experience
retaliatory actions.

IRS management agreed with TIGTA’s recommendations and has taken or plans to take
appropriate corrective actions. However, the IRS stated that pursuing new legislation to protect
informants against retaliation by their employers is outside of their jurisdiction.

Mortgage Interest Data Could Be Used to Pursue Nonfilers and Underreporters (Reference
No. 2009-40-112)
Individuals who fail to file required returns and/or underreport their income can create unfair
burdens on honest taxpayers and diminish the public’s respect for the tax system. TIGTA
recognizes that, given the current state of the economy, many individuals are struggling to meet
their mortgages and other financial obligations. Nevertheless, a large number of individuals are
paying a significant amount of mortgage interest and are either not filing tax returns or are filing
tax returns reporting income that is not sufficient to cover their mortgage obligations and basic
living expenses. The considerable difference between income and expenditures on these returns
raises serious questions about whether additional income should have been reported.




19
     Public Law No. 109-432, 120 Stat. 2958 (2006).

20                                                     TIGTA Semiannual Report to Congress
                                                          April 1, 2009 - September 30, 2009
TIGTA recommended that the IRS explore the feasibility of making greater use of mortgage
interest data to pursue additional nonfilers and underreporters for audit. IRS management agreed
with TIGTA’s recommendation and plans to take appropriate corrective action.

Providing Quality Taxpayer Service
Since the late 1990’s, the IRS has increased its delivery of quality customer service to taxpayers.
In fact, in its current strategic plan, the IRS’s first goal is to improve taxpayer service. In July
2005, Congress requested that the IRS develop a five-year plan, including an outline of which
services the IRS should provide and how it will improve service for taxpayers. In response, the
IRS developed the Taxpayer Assistance Blueprint, which focuses on the appropriate types and
amounts of services that support the needs of filers. The IRS has begun implementing the
initiatives of the Blueprint; however, many of the initiatives are dependent on future funding.

Elderly Taxpayers Would Benefit if the IRS and Tax Professionals Would Partner to Reduce
Unnecessary Filings (Reference No. 2009-30-076)
Taxpayers age 65 and older will directly benefit by not filing returns when they have no need to
do so. These taxpayers will have less burden and will save time and financial costs. To realize
these benefits, taxpayers will need to work with tax professionals and guidance from the IRS to
reevaluate their withholding requirements if they do not anticipate tax liabilities in future years.

TIGTA recommended that the IRS ensure consistency between the IRS’s public Web site and
written products by reviewing, and, if necessary, revising its most common publications and
Forms 1040/1040A
instructions. The              “To reduce the burden and cost for elderly taxpayers, the IRS
revisions should advise        should provide seniors with a consistent message about
taxpayers to                   whether payments should be subject to income tax
discontinue income tax         withholding,” commented J. Russell George, the Treasury
withholding if there is        Inspector General for Tax Administration. “The IRS and the
little likelihood that         tax professional community share the responsibility for
they will be required to       educating taxpayers age 65 and older about discontinuing
file returns in                unnecessary withholding and avoiding the filing of tax returns
subsequent years. In           when appropriate.”
addition, TIGTA
recommended that the IRS conduct focus groups to determine why taxpayers are filing
unnecessary returns. As part of its existing outreach and education efforts for tax
professionals, the IRS should include discussions on: 1) tax responsibilities of the elderly;
2) discontinuing withholding on Social Security benefits; 3) coordinating rollovers with
financial institutions to avoid the mandatory 20 percent withholding; and 4) filing
requirements.

IRS management did not agree to revise the IRS’s most common publications and the
instructions to Forms 1040/1040A. The IRS stated that such a change would risk causing
confusion for the vast majority of taxpayers in order to accommodate a small number of filers.
However, IRS management plans to reinforce the message about unnecessary filings in the Tax
Guide for Seniors (Publication 554) and will review other publications targeting the elderly.
The IRS is working on reviewing prior research for internal and external entities, such as the

TIGTA Semiannual Report to Congress                                                        21
April 1, 2009 - September 30, 2009
AARP. Once this research is completed, the IRS plans to determine what future action is
necessary, including whether it should conduct focus groups with the elderly, tax professionals,
and/or payers of pensions and annuities.

Although TIGTA agrees that reinforcing the message regarding unnecessary filings in
publications specifically for the elderly is necessary, an increased awareness effort may not be
successful if it is limited to only those publications. The IRS should refer elderly taxpayers from
the instructions and most common publications to the targeted publication for more detailed
information. In addition, IRS management stated that they would only consider conducting
focus groups if warranted by their review of prior research. However, TIGTA believes that
focus groups will provide valuable insight into the root causes of why the elderly continue to file
unnecessary returns and/or have income tax unnecessarily withheld. Focus groups and outreach
efforts to engage the preparer community will assist the IRS with its effort to reduce taxpayer
burden.

In addition, after considering the IRS’s comments to the outcome measures reported, TIGTA
maintains that they are sound and reasonable.

Quality of Volunteer Program Site Services During the 2009 Filing Season (Reference No.
2009-40-128)
The Volunteer Program plays an increasingly important role in achieving the IRS’s goal of
improving taxpayer service and facilitating participation in the tax system. It provides no-cost
Federal tax return preparation and electronic filing directed toward underserved segments of
individual taxpayers, including low-income to moderate-income, elderly, disabled, and
limited-English-proficient taxpayers. However, the quality assurance process needs some
improvements and is still not consistently followed. Incorrectly prepared tax returns can
increase the risk of taxpayers receiving erroneous tax refunds by not receiving credits to which
they are entitled or receiving additional credits for which they do not qualify.

TIGTA recommended that the IRS: 1) begin trending accuracy rates (an analytical means to
review the performance of volunteer sites over time) by site and tax topic to identify patterns and
concerns in which to focus education, training, and accountability; 2) ensure that all new tax law
topics and questions pertaining to filing status are incorporated into the IRS intake sheet, and
augment the process for IRS approval of locally developed intake sheets to ensure completeness
and consistency of information gathered from taxpayers during the tax return preparation
process; 3) ensure that quality reviews completed at the volunteer sites are selected by the IRS
quality reviewer, samples are random, and complete documentation is obtained; and 4) require
that quality review training be revised based on results of the 2009 filing season to better ensure
that tax returns are randomly selected and all quality reviews are consistently supported by
sufficient documentation.

IRS management agreed with three recommendations and partially agreed with one other
recommendation. The IRS plans to incorporate new tax law topics and questions pertaining to
filing status into the IRS intake sheet. In addition, it plans to augment the process for approving
locally developed intake sheets. To further mitigate the risk of incomplete or inconsistent



22                                                     TIGTA Semiannual Report to Congress
                                                          April 1, 2009 - September 30, 2009
information gathering, the IRS plans to require for the 2010 filing season that all grant recipients
use its intake sheet.

The IRS agreed in part with TIGTA’s first recommendation, noting that it captures an accuracy
rate by tax topic, but did not agree to trend accuracy rates by site because this would increase the
number of reviews conducted at each site. The IRS cited a lack of resources to accomplish the
reviews, particularly considering that it has more than 12,000 volunteer sites. However, TIGTA
does not believe additional reviews would be required. The IRS should capture the accuracy rate
by site for the reviews required to achieve a statistical sample.

Toll-Free Telephone Access Reduced During the 2009 Filing Season (Reference No. 2009-40-
127)
During the 2009 filing season, the IRS did not achieve several of its key toll-free telephone
assistance performance measurement goals. Access to the toll-free telephone assistors was
lower than planned because of the high volume of calls regarding the prior year’s Adjusted
Gross Income, the Recovery Rebate Credit, and the Recovery Act. In addition, the IRS’s main
performance measure for the toll-free telephone lines (the Customer Service Representative
Level of Service (Level of Service)), did not adequately reflect total call demand and taxpayer
experience when calling its toll-free telephone lines.

TIGTA recommended that the IRS develop a Government Performance and Results Act of
199320 (GPRA) quantity outcome measure that takes into account total taxpayer demand as well
as the taxpayer experience when calling the IRS’s toll-free telephone lines.

IRS management disagreed with TIGTA’s recommendations stating that they already have a
suite of measures that are utilized to assess the customer experience. The IRS believes that any
new quantity outcome measure would not incorporate TIGTA’s characterization of total call
demand. However, IRS management has undertaken a review of their GPRA measures and
plans to take into consideration the concerns outlined in the report.

Although the IRS has a suite of measures and reports the level of service externally to taxpayers
and other stakeholders, the average speed of answer is not reported. Of most importance to
taxpayers and other stakeholders is whether a taxpayer is able to speak with an assistor when
desired and how quickly a taxpayer speaks with an assistor.

Human Capital
Like many other Federal Government agencies, the IRS has experienced workforce challenges
over the past few years, including recruiting, training, and retaining employees, as well as an
increasing number of employees who are eligible to retire. In addition, the IRS’s challenge of
having the right people in the right place at the right time is made more difficult by many
complex internal and external factors. For example, future IRS leaders will need to be more
proactive and think on a larger scale, while the work performed by IRS employees continually
requires greater expertise.

20
  Public Law No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and 39
U.S.C.).

TIGTA Semiannual Report to Congress                                                                    23
April 1, 2009 - September 30, 2009
Assessment of Actions to Address the IRS’s Human Capital Challenge (Reference No. 2009-
10-118)
While the IRS has recently increased its focus on workforce issues, TIGTA believes that the
IRS will have to address several key areas to make progress in addressing its human capital
challenge. If the IRS is not successful, it may not have the right people in the right place at the
right time to achieve its mission of providing taxpayers with top quality service and enforcing
the law with integrity and fairness to all.

Successfully addressing the human capital challenge will be a long-term effort. Currently, the
IRS faces a loss of leadership and technical employees that could threaten its ability to provide
American taxpayers with the service they have come to expect. Today, the IRS has
approximately 106,000 employees, including 9,100 managers. However, more than half of the
IRS’s employees and managers have reached age 50, and 39 percent of IRS executives are
already eligible for retirement. To fill projected shortages in leadership ranks, the IRS has stated
that it must recruit one manager a day for the next ten years. Furthermore, the rate at which new
recruits are leaving the IRS during the first and second year of employment has increased since
FY 2005. The pending loss of institutional knowledge and expertise at all levels and the
challenge of retaining a highly skilled workforce increase the risk that the IRS may not be able to
achieve its mission.

The IRS is currently taking significant actions to address workforce issues, such as the creation
of the IRS Commissioner’s Workforce of Tomorrow Task Force and the incorporation of human
capital strategies and high-level measures in the IRS’s 2009–2013 Strategic Plan. However,
TIGTA audits show that the IRS will need to address four key areas to make progress in
addressing its human capital challenge. IRS executive management will need to:
1) lead the agency to act as “one IRS” to strategically address its human capital issues;
2) balance the need for a more strategic focus on human capital issues with the need to continue
addressing day-to-day issues that affect the IRS workforce; 3) evaluate the success of human
capital initiatives and make adjustments as necessary; and 4) build upon the momentum gained
through the IRS’s recent emphasis on human capital issues.

Specifically, TIGTA’s previous audits found that the IRS lacked comprehensive agency-wide
information on the skills of its employees in mission-critical occupations and that the IRS had
not determined the overall leadership strength of each operating division. In addition, the IRS
did not have an agency-wide recruitment strategy, and substantial progress had not been made in
developing and implementing an agency-wide process to consistently and accurately project
future human resource needs.

While the IRS is currently taking significant actions to focus on human capital issues, including
actions to address TIGTA’s prior recommendations, there is much work ahead. Due to the
importance of human capital management to the accomplishment of the IRS’s mission, TIGTA
will continue to monitor the IRS’s progress in addressing this challenge.

TIGTA made no recommendations in this report; however, key IRS management officials
reviewed it prior to issuance and agreed with the facts and conclusions presented.



24                                                     TIGTA Semiannual Report to Congress
                                                          April 1, 2009 - September 30, 2009
Erroneous and Improper Payments
As defined by the Improper Payments Information Act of 2002,21 an improper payment is any
payment that should not have been made or that was made in an incorrect amount (including
overpayments and underpayments) under statutory, contractual, administrative, or other legally
applicable requirements. It includes any payment to an ineligible recipient, any payment for an
ineligible service, any duplicate payment, payments for services not received, and any payment
that does not account for credit for applicable discounts. For the IRS, improper and erroneous
payments generally involve improperly paid refunds, tax return filing fraud, or overpayments to
vendors or contractors.

More Progress Is Needed to Reduce the Millions Paid in Interest on Improperly Frozen
Refunds (Reference No. 2009-30-106)
The IRS issues millions of refunds worth billions of dollars to taxpayers each year through its
automated and manual systems. The IRS’s inability to promptly resolve some accounts with a
large dollar refund freeze (a freeze of a taxpayer’s account that has a filed tax return and a credit
balance of $10 million or more) can adversely affect taxpayers who may need the refunds to
help meet their financial obligations. These delayed actions may also negatively impact the
IRS’s mission of providing top-quality customer service, in addition to costing the Federal
Government millions of dollars in additional interest.

TIGTA recommended that the IRS coordinate with its appropriate functional areas and follow
through with implementing the prior recommendations to: 1) properly implement computer
system modifications to provide alerts to review large dollar frozen taxpayer accounts for credits
that can be released and to systemically release the freeze on accounts when credits fall below
the large dollar refund freeze threshold; 2) ensure procedures for processing large dollar frozen
refunds adequately address common issues that arise and delineate responsibilities of the various
functions that are most involved with the processing and monitoring of these taxpayer accounts;
and 3) ensure training materials cover the procedures for processing large dollar frozen refunds.

IRS management agreed with TIGTA’s recommendations and has taken or plans to take
appropriate corrective actions.

Increased Automated Controls Could Further Improve Accountability Over Manual Refunds
(Reference No. 2009-40-131)
During 2007, the IRS issued approximately 184,000 manual refunds totaling over
$1.5 billion to individual taxpayers, and approximately 70,000 manual refunds totaling almost
$32 billion to business taxpayers. Due to inaccurate and incomplete data, and data that are
not always maintained by the IRS, neither the IRS nor its oversight organizations are able to
perform systemic analyses to identify erroneous manual refunds. Given the large dollar
amounts involved, this could result in a significant loss of Federal Government revenues.

TIGTA recommended that the IRS ensure that the identification number of the manual refund
requestor is not overridden on the electronic data file and that the requestor’s employee
identification number is captured in electronic data files for all manual refund transactions.

21
     Public Law No. 107-300, 116 Stat. 2350 (2002).

TIGTA Semiannual Report to Congress                                                        25
April 1, 2009 - September 30, 2009
TIGTA also recommended that the IRS should establish a standardized computer record that
includes key information on manual refunds processed through the Secure Payment System and
establish a process to regularly obtain the electronic data file for use in monitoring the program.
To increase accountability, the IRS should develop a process to provide for systemic managerial
approval. In the interim, the IRS should capture the identification number of the managerial
Approving Official in the electronic data files.

IRS management agreed with TIGTA’s recommendations and they plan to take appropriate
corrective actions, contingent on funding availability.

Contracting Officer’s Technical Representatives Effectiveness Over Contracts (Reference No.
2009-10-139)
The COTR workforce is a key internal control to ensure that the contractor is meeting the
Government’s interest in terms of providing deliverables that are: of high quality, complete,
timely, and cost effective. TIGTA determined that the IRS’s contract administration was
ineffective. As a result, the IRS cannot ensure that payments were made only to contractors
who performed in accordance with contract terms and conditions and that taxpayer dollars are
not being misspent.

TIGTA recommended that the IRS: 1) identify all IRS employees performing COTR-related
duties and ensure that they are formally delegated authority by the responsible contracting
officer, appropriately trained, and certified in accordance with Federal acquisition requirements;
2) ensure supervisors are knowledgeable of the contract oversight requirements and that they
evaluate all aspects of their employees’ COTR responsibilities; and 3) ensure that consistent
ongoing on-the-job support is provided for newly hired/less experienced COTRs. TIGTA also
recommended that the IRS reevaluate the current approach to expand the reviews of COTR
contract files to ensure that reviews are routinely performed, accurate, and that complete
documentation is received, verified, and retained to support the contractor’s billed expenses.

IRS management agreed with most of TIGTA’s recommendations and plans to take appropriate
corrective actions. The IRS did not agree to revise the yearly performance evaluation process
because of contractual issues in the collective bargaining agreement. TIGTA recognizes the
legitimate concerns the IRS has raised with regard to evaluating the performance of the COTRs;
however, despite these concerns, the IRS could attempt to negotiate different terms in the next
collective bargaining agreement in an effort to address TIGTA’s concerns.

Taxpayer Protection and Rights
The IRS continues to place increased emphasis on tax compliance activities, such as better-
identifying corporations and individuals who fail to report income or do not pay what they owe.
However, all collection efforts must be balanced against the rights of taxpayers to receive fair
and equitable treatment, both in the assessment of taxes and in all initiatives undertaken to
collect open account balances. In summary, all collection efforts must ensure that taxpayer
rights are protected.




26                                                    TIGTA Semiannual Report to Congress
                                                         April 1, 2009 - September 30, 2009
Increased Oversight Is Needed to Prevent Inadvertent Disclosure of Personally Identifiable
Information (Reference No. 2009-30-059)
In November 2007, the Federal Trade Commission reported that, for the eighth year in a row,
                                              identity theft was the number one consumer
                                              complaint nationwide and that each year it
  “Taxpayers need to be assured that the IRS  affects more than 10 million Americans.
  is taking every precaution to protect their Consumers have lost more than $45 billion to
  private information from inadvertent        identity thieves. Taxpayers need to be assured
  disclosure,” commented J. Russell George,   that the IRS is taking every precaution to
  the Treasury Inspector General for Tax      protect their private information from
  Administration.                             inadvertent disclosure.

TIGTA recommended that the IRS establish authority and responsibility at the national level for
the disposal and destruction of sensitive but unclassified (SBU) waste and personally identifiable
information (PII) and establish policies and procedures to address internal control weaknesses.
The IRS should ensure that all SBU waste contracts include the Federal security requirements for
SBU waste/PII disposal and destruction. Additionally, improvements to oversight and
management of SBU waste disposal contracts should include standardization of critical elements
and the creation of a national database of all IRS facilities, the contracts covering SBU waste
disposal, and the contractors that serve them. Furthermore, the IRS should provide complete,
updated, and accurate guidance and education to all IRS management, employees, and
contractors involved in any aspect of the collection, disposal, or destruction of SBU waste and
PII.

IRS management agreed with TIGTA’s recommendations and has taken or plans to take
appropriate corrective actions.

Inadequate Management Information Has Adversely Affected the Acceptance Agent Program
(Reference No. 2009-40-087)
The purpose of the Individual Taxpayer Identification Number (ITIN) is to provide alien
individuals, whether or not they reside in the United States, an identifying number for use in
connection with United States tax return filing requirements. One method by which taxpayers
obtain ITINs is through IRS-approved Acceptance Agents or Certifying Acceptance Agents
(both hereafter referred to as “Agents”).

The primary means by which the IRS regulates Agents are the application screening process and
the monitoring program. The volume of ITINs is growing, increasing the risk of fraudulent tax
returns using ITINs. Inadequate screening and monitoring increase the potential for lost revenue
                                                         resulting from actions of
                                                         unscrupulous Agents.
  “Without proper oversight, there is an increased risk
  that fraudulent tax returns are being filed using
                                                         TIGTA recommended that the IRS
  ITINs,” commented J. Russell George, the Treasury
                                                         ensure that the IRS’s management
  Inspector General for Tax Administration. “The IRS
                                                         information system is modified to
  must improve its information management processes
                                                         generate periodic and regular reports,
  to effectively oversee this program.”
                                                         followed by the development of


TIGTA Semiannual Report to Congress                                                     27
April 1, 2009 - September 30, 2009
procedures and internal controls to monitor the Acceptance Agent Program. Sufficient resources
should be used to make certain all validations are completed and qualification checks passed
before an application is accepted. Compliance checks should be automated. In addition, TIGTA
recommended that sufficient staffing be provided to review the documents that support the
Forms W-7, Application for IRS Individual Taxpayer Identification Number, submitted by
Agents.

IRS management agreed with TIGTA’s recommendations and plans to take appropriate
corrective actions.

Effectiveness of the Process to Ensure Accuracy of Combat Zone Indicators (Reference No.
2009-40-138)
In recognition of the dangers that members of the military face and the sacrifices they make on
behalf of the United States, special Federal income tax benefits are extended to members of the
military. These benefits include the exclusion of combat pay from taxation and extension of
time to file tax returns and pay taxes. While civilian employees supporting the military in
combat zones are not entitled to the Combat Zone military pay exclusion, they are entitled to
other benefits, such as extensions of time to file and pay. To identify these taxpayers, the IRS
places Combat Zone indicators on their tax accounts. However, Combat Zone indicators are
often inaccurate, which can result in taxpayers not receiving the benefits to which they are
entitled, or continuing to receive special tax benefits to which they are no longer entitled.

TIGTA recommended that the IRS develop processes to distinguish military taxpayers from
civilian taxpayers, properly identify individuals who are in the military that file a joint tax return,
and ensure Combat Zone indicators are properly reversed. TIGTA also recommended that the
IRS discontinue providing the option to self-identify by annotating a tax return. Further, TIGTA
recommended that the IRS review the accounts of nonfilers with inaccurate indicators to
determine if notification or compliance actions are needed, identify and resolve unpostable
records from the Department of Defense, validate Combat Zone service at the time an individual
self-identifies, and develop a secure fillable form with the required data fields to improve
electronic self-identification.

IRS management agreed with most of TIGTA’s recommendations; however, it disagreed with
the recommendation to develop a process to distinguish military taxpayers from civilian
taxpayers, indicating that the IRS has the ability to distinguish between military and civilian
taxpayers. TIGTA acknowledges that the IRS can identify military individuals via the
information received monthly from the Department of Defense. However, as the report stated,
the IRS uses the same indicator for both military and civilian taxpayers. Once this indicator is
set on the accounts of civilian taxpayers, it could allow civilian taxpayers to inappropriately
exclude income without action by the IRS, because the IRS will not review accounts with
unreported income if a Combat Zone indicator is present.




28                                                      TIGTA Semiannual Report to Congress
                                                           April 1, 2009 - September 30, 2009
Processing Returns and Implementing Tax Law Changes During the Tax
Filing Season
Each filing season tests the IRS’s ability to implement tax law changes made by Congress. It is
during the filing season that most individuals file their income tax returns and call the IRS with
questions about specific tax laws or filing procedures. Correctly implementing tax law changes
is a continuing challenge because the IRS must identify the tax law changes; revise the various
tax forms, instructions, and publications; and reprogram the computer systems used for
processing returns. Changes to the tax laws have a major effect on how the IRS conducts its
activities, what resources are required, and how much progress can be made on strategic goals.
Congress frequently changes the tax laws. Thus, some level of change is a normal part of the
IRS environment. However, certain types of changes can significantly affect the IRS in terms of
the quality and effectiveness of its service and in how taxpayers perceive the IRS.

2009 Filing Season Implementation (Reference No. 2009-40-142)
Each year, tax law changes create challenges for both the IRS and individual taxpayers.
Moreover, the 2009 filing season presented additional challenges due to the passage of three
significant tax laws in 2008 and 2009 after the filing season had started. Through May 29, 2009,
the IRS had received more than 133.6 million individual tax returns. Of those, 91.7 million were
electronically filed and 41.9 million were filed on paper.

One of the challenges facing the IRS involved administering revisions to the First-Time
Homebuyer Credit (FTHC). At the time of TIGTA's review, the IRS had received more than 1.1
million tax returns on which taxpayers were allowed more than $7.8 billion in FTHCs. Because
of different rules regarding the repayment of the credit, the IRS established special processing
code “H” to assist computer programs in distinguishing FTHC claims for homes purchased in
calendar year 2009, from homes purchased in calendar year 2008. This code should have been
recorded only when FTHC claims show the home is purchased in calendar year 2009.

In limited testing of returns with the FTHC, TIGTA found that the special processing code was
not always recorded accurately. We reviewed the purchase dates shown on the 47,276 e-filed
returns and found that 93 percent (43,967) did not have their IRS accounts properly coded. Since
these taxpayers purchased their homes in calendar year 2009, they generally should not be
required to repay the FTHC but may eventually be incorrectly identified as being liable for
repayment of the credit. Taxpayers may be burdened by inaccurate notices and improper
collection attempts if the IRS cannot accurately identify which credits must be repaid.

TIGTA recommended that the IRS ensure that special processing code “H” is accurately used on
taxpayer accounts by identifying previously processed tax returns that were not coded accurately
and ensuring subsequently processed tax returns are properly coded.

IRS management disagreed with this recommendation, stating that they have gone to
considerable lengths to mark accounts with the year of purchase and the dollar value of the credit
issued, and intend to track this information for taxpayers who are required to pay back the credit.
As the IRS determines what compliance activities will be conducted, it will validate the
information it has in order to ensure that only those taxpayers who have not met their


TIGTA Semiannual Report to Congress                                                      29
April 1, 2009 - September 30, 2009
responsibilities are contacted. This will include ensuring that the date of purchase was captured
accurately.

Despite IRS management’s assertion that the IRS went through considerable lengths to mark
accounts with the year of purchase and to track such information in determining if recapture is
required, TIGTA’s review of electronically filed returns found that 93 percent did not have their
accounts properly coded. As a result, TIGTA initiated an audit that will evaluate the
effectiveness of the IRS’s efforts to distinguish between filers claiming the credit for a purchase
in 2008 versus a purchase in 2009.

Assessment of IRS Stimulus Payment Recovery Payment Efforts (Reference No. 2009-40-129)
The Recovery Rebate Credit is provided to those eligible individuals who may not have received
an economic stimulus payment or who are entitled to an additional credit. Overall, the IRS
successfully planned for the implementation of the Recovery Rebate Credit. The IRS issued
more than $96 billion in advanced economic stimulus payments to more than 119 million
individuals in 2008, and approximately $8.5 billion in Recovery Rebate Credits to almost
21 million taxpayers as of April 17, 2009. The IRS was able to achieve the intent of Congress
by providing billions of dollars to millions of Americans.

TIGTA recommended that the IRS issue recovery payments to individuals who did not receive
the Recovery Rebate Credit to which they were entitled as a result of programming and other
errors.

IRS management agreed with the intent of TIGTA’s recommendations and is currently
reviewing the data provided by TIGTA. The IRS plans to provide appropriate taxpayer relief, if
warranted, based on the results of the review.

Inadequate Data on Paid Preparers Impedes Effective Oversight (Reference No. 2009-40-098)
More than half of all tax returns filed are prepared by paid preparers. However, the IRS cannot
determine the population of preparers or if the preparers are compliant with their own tax
obligations as well as all tax laws and
regulations. Tax return preparers            “The IRS currently is not able to track, monitor
have a significant effect on taxpayer        or control preparers’ activities and compliance,
compliance. A unique identifying             or even determine the total number of paid tax
number to control each preparer and          return preparers,” commented J. Russell George,
an effective management information          the Treasury Inspector General for Tax
system are necessary for the IRS to          Administration.
facilitate tax administration and
provide effective oversight of preparers.

TIGTA recommended that the IRS: 1) establish a requirement that paid preparers be compliant
with their own Federal tax filing obligations in order to be allowed to prepare tax returns for
others for a fee; 2) revise the target completion date for its study on requiring preparers to use a
single identification number when filing tax returns; 3) develop a method to enforce I.R.C.
Section 6695(c), which imposes a penalty on preparers who do not provide an identification
number on tax returns they prepare; and 4) develop a comprehensive data management system


30                                                     TIGTA Semiannual Report to Congress
                                                          April 1, 2009 - September 30, 2009
that allows the IRS, at a minimum, to determine the population of preparers by eliminating
discrepancies between its various computer systems.

IRS management agreed in principal with the first and second recommendations and believes
these recommendations will be addressed by the Commissioner’s Tax Return Preparer Review
team as well as a guidance project being conducted in coordination with the Department of the
Treasury. IRS management agreed with the third and fourth recommendations and plans to take
appropriate corrective actions.

IRS Plans for Modernizing Tax Return Processing (Reference No. 2009-40-130)
In 2008, the IRS received 156.3 million individual income tax returns of which 66.4 million
(42.5 percent) were paper-filed. The IRS has devoted significant resources to identify ways it
could modernize its method for processing paper tax returns, but has had no success. Mandating
electronic filing (e-filing) for paid preparers and developing processes to convert paper returns
into an electronic format would significantly reduce paper filings, processing costs, and error
rates, with the added benefit of faster tax refunds and more-accurate tax returns for taxpayers.
TIGTA recommended that the IRS pursue implementing successful processes followed by States
that use scanning technology to convert paper-filed tax returns prepared by individuals using a
tax preparation software package into an electronic format. TIGTA also made a legislative
recommendation to consider mandating e-filing for all paid preparers.

IRS management agreed with the recommendation and plans to take appropriate corrective
action. The IRS also agreed with the legislative recommendation and stated that it is currently
under consideration by the Treasury, and is included in the President's 2010 budget request.

Procedures to Address Noncompliance with Reporting Requirements for Contributions of
Motor Vehicles Are Inadequate (Reference No. 2009-30-116)
The legitimacy of the values placed on donations of motor vehicles has recently been questioned
by the IRS and Congress. As a result, Congress passed legislation limiting deductions and
adding reporting requirements. Individual taxpayers are required to file Form 1098-C,
Contributions of Motor Vehicles, Boats, and Airplanes, or a written acknowledgment from the
charity, in addition to Form 8283, Noncash Charitable Contributions, if their charitable
deductions claimed for donated motor vehicles exceed $500. Currently, taxpayers who may not
be entitled to deductions for charitable contributions of motor vehicles are reducing their tax
liabilities, which could result in a loss of revenue to the Federal Government and inequitable
treatment of taxpayers.

TIGTA recommended that the IRS ensure that: 1) returns without substantiation for charitable
contributions of motor vehicles are adjusted pursuant to math error authority; 2) procedures are
developed to match the information reported by charities on Forms 1098-C with the information
reported on taxpayers’ returns; and 3) outreach, educational material, and other methods be used
to ensure charitable organizations comply with the requirement to file Form 1098-C with the IRS
for each donated motor vehicle with a value in excess of $500.

IRS management agreed with one of the three recommendations. The IRS agreed to process
returns without substantiation for charitable contributions of motor vehicles pursuant to math


TIGTA Semiannual Report to Congress                                                     31
April 1, 2009 - September 30, 2009
error authority. IRS management did not agree to match the information reported by charities
on Forms 1098-C with the information reported on taxpayers’ returns. The IRS believes the
noncash contribution review is better suited for the Correspondence Examination Program, a
program in which tax returns are examined. In addition, IRS management believes they have a
substantial outreach program for motor vehicle donations and have completed what is being
recommended.

However, TIGTA believes matching the information reported by charities with the information
on taxpayers’ returns would more effectively identify potential underreporting by taxpayers
claiming undue deductions for motor vehicle donations. Matching it could also facilitate the
imposition of penalties on charities that do not provide the required documentation to donors
and the IRS. TIGTA also believes the IRS has had more than two years to make charities aware
of the change in the law, but the analysis still identified an approximately 60 percent
noncompliance rate. The deficient cases in the samples were all filed after the IRS outreach was
available. Furthermore, because the IRS is not identifying noncompliant charities and imposing
penalties when the charities fail to submit the required documentation, compliance by charities
may not improve.

Improving Performance and Financial Data for Program and Budget
Decisions
While the IRS has made some progress in this area, it lacks a comprehensive, integrated
system that provides accurate, relevant, and timely financial and operating data that describes
performance measures, productivity, and associated program costs. In addition, the IRS cannot
produce timely, accurate, and useful information needed for day-to-day decisions, which hinders
its ability to address financial management and operational issues in order to fulfill its
responsibilities. TIGTA has continued to report that various IRS management information
systems are insufficient to enable IRS management to measure costs, determine if performance
goals have been achieved, or monitor progress in achieving program goals.

Improved Project Management Is Needed to Measure the Impact of Research Efforts on Tax
Administration (Reference No. 2009-10-095)
IRS management relies on research programs to deliver information that is integral to improving
performance on strategic goals and objectives. However, IRS research management has not
                                                                 developed and implemented
  “The IRS does not have an effective process to monitor,        effective business measures and
  validate and measure its research efforts,” commented          project management processes to
  J. Russell George, the Treasury Inspector General for          provide pertinent data about
  Tax Administration.                                            whether IRS research efforts
                                                                 achieved established program
                                                                 objectives. This is especially
significant because the IRS spent more than $93.2 million on research in Fiscal Year 2008, but
cannot effectively assess the impact its research efforts had on tax administration.

TIGTA recommended that the IRS develop and implement effective business measures to
better-assess whether its research efforts achieve program objectives and to show the impact
on tax administration. TIGTA also recommended establishing research standards and

32                                                   TIGTA Semiannual Report to Congress
                                                        April 1, 2009 - September 30, 2009
practices to ensure basic project information is captured, tracked, and monitored to allow for
consistent and comparable reporting of IRS research performance.

IRS management agreed in principle with TIGTA’s recommendations, but offered alternative
corrective actions for all three recommendations. The Servicewide Research Council (a high-
level leadership group for sharing information, coordinating cross-cutting activities and
resolving procedural issues that affect research efforts across the entire IRS) plans to consider
developing appropriate business measures and explore whether standardized measures are
desirable. The Council also plans to look for opportunities to develop consistent definitions
of research projects and establish an appropriate set of documentation standards and
practices. Some IRS research units were already in the process of developing workload
measures and redesigning tracking systems.

While recognizing the value of having the Servicewide Research Council discuss the
establishment of business measures, TIGTA is concerned that IRS management has not made
a commitment to establishing business measures. The Servicewide Research Council serves
as a forum for exchanging ideas and coordinating cross-cutting activities, not as a standards-
making body. The Internal Revenue Manual states the Office of Research, Analysis, and
Statistics is responsible for providing functional leadership, guidance, and support to the IRS
Research Community on research standards and practices to ensure consistency and
comparability of performance between the various research programs.

In this environment of increased government accountability and transparency, TIGTA believes it
is critical for IRS management to be able to report the benefits and impact of IRS research
resources ($93.2 million spent in FY 2008) beyond just internal IRS customer satisfaction.

Additional Efforts in Space Planning Are Needed to Address Planned Staffing Increases
(Reference No. 2009-10-107)
As a result of its ongoing space reduction efforts, the IRS has reduced its office space seven
percent since 2004. However, the IRS still faces a number of challenges in its ongoing efforts to
effectively manage its space
and associated costs. In
February 2009, the IRS             “Although the IRS has unused space currently available,
actively began planning for        additional efforts are needed to ensure that the space-related
a hiring initiative which          challenges created by its new hires are effectively
could increase the non-            addressed,” commented J. Russell George, the Treasury
campus staffing by as much         Inspector General for Tax Administration.
as nine percent over the
next two years. In addition, long-term space planning needs to consider the impact of
workstation sharing, which could result in $6 million in future annual rent savings.

TIGTA recommended that the IRS develop an overall estimate of planned hiring by location and
compare this estimate to existing space and develop a comprehensive national policy regarding
workstation sharing for flexi-place employees. TIGTA also recommended the IRS reevaluate
all significant in-process and planned space reduction projects based on the additional space



TIGTA Semiannual Report to Congress                                                       33
April 1, 2009 - September 30, 2009
needs created by the planned hiring initiative, perform a reassessment of the projected long-term
space requirements for non-campus facilities, and revise the IRS’s overall space utilization goal.

TIGTA further recommended that the IRS develop procedures requiring that future building-
level space needs assessments consider the impact of workstation sharing and be periodically
reconciled to agency-wide projected staffing levels. Finally, TIGTA recommended that the IRS
reinforce the need to perform periodic validations of space data, expand guidance regarding
these evaluations, and ensure that its project tracking system is updated to include all key
information for significant in-process projects.

IRS management agreed with TIGTA’s recommendations and has taken or plans to take
appropriate corrective actions.

Taxpayer Advocacy Panels (Reference No. 2009-10-121)
The Taxpayer Advocacy Panel (Panel) was established in 2002 to listen to taxpayers, identify
“grass roots” issues, and make recommendations for improving the customer service provided by
the IRS. The Panel provides a valuable service to the IRS and to taxpayers. However, the
Taxpayer Advocate Service (TAS) needs to ensure better use of its resources by providing a
better balance between the costs of administration and staff used to support the Panel and the
Panel’s ability to help improve service to taxpayers. Given the current emphasis on
accountability for Federal programs, it is important for the National Taxpayer Advocate (NTA)
to ensure that TAS resources are being efficiently spent and the Panel is at an optimal size.

TIGTA recommended that the IRS: 1) revise the staff time tracking system to help evaluate
whether resources are being used efficiently; 2) reevaluate the Panel’s structure and size to
ensure an appropriate balance between TAS staff and budgetary resources used to support the
Panel; 3) reevaluate the roles of the TAS staff assigned to the Panel and establish guidance to
ensure that the Panel functions independently; 4) revise the charter to accurately reflect the roles
of Panel members; 5) establish and implement a process to validate data in the Panel database
and correct the erroneous entries TIGTA identified; 6) establish a process to follow-up with the
IRS on the recommendations planned for future implementation; 7) establish formal guidance for
conducting tax compliance checks of Panel members; and 8) develop procedures to verify that
licensed tax practitioners serving on the Panel are in good standing with the IRS.

IRS management agreed with most of TIGTA’s recommendations. The IRS did not fully agree
to reevaluate the Panel’s size to determine the optimal structure of the Panel’s membership,
indicating there was no compelling data that the current structure is flawed, and that it would not
be cost-effective to make such changes. In addition, the IRS noted that any changes to the Panel
require approval by the Secretary of the Treasury and the Commissioner.

In the current environment of increased accountability in government, TIGTA believes that it is
important for the IRS to evaluate this program and identify any potential changes that could
reduce costs and improve efficiency. Because no new studies have been performed since the
Panel was established in 2002, the recommendation to reevaluate the structure and size of the
Panel and the TAS staff supporting the Panel continues to be valid.



34                                                    TIGTA Semiannual Report to Congress
                                                         April 1, 2009 - September 30, 2009
                   PROTECT THE INTEGRITY OF
                      TAX ADMINISTRATION
      IGTA’s mission was enhanced on October 14, 2008, when the President signed Public

T     Law 110-409, the Inspector General Reform Act of 2008, which lifted the statutory
      prohibition against TIGTA providing physical security to protect IRS employees against
      external threats.

Subsequent to passage of this important legislation, TIGTA developed the Armed Escort
Program. The Armed Escort Program allows IRS employees to request that TIGTA special
agents escort them when an IRS employee requires personal contact with a taxpayer who has
been designated by the IRS as a Potentially Dangerous Taxpayer, is the subject of an open
assault investigation, an open threat investigation, or the IRS employee believes such contact
with the taxpayer poses a dangerous situation. TIGTA expects the necessity for armed escorts to
increase over time as the IRS places additional focus on collection and enforcement activity and
shifts away from using private debt collectors to collect delinquent tax debt and reassigns that
function to IRS employees. By providing armed escorts, TIGTA is able to provide a safe
environment for the IRS employee to conduct tax administration functions. TIGTA initiated its
Armed Escort Program on April 1, 2009.

TIGTA’s Armed Escort Program is a seamless extension of its assault and threat investigations.
When a taxpayer threatens or assaults an IRS employee, TIGTA responds and an investigation
ensues. As part of the investigation, a TIGTA special agent will contact the taxpayer and
conduct a law enforcement interview. Depending upon the facts and outcome of the
investigation, should an IRS employee again need to contact the taxpayer, TIGTA will provide
an armed escort for the IRS employee when meeting with the taxpayer.

Prior to initiating the Armed Escort Program, TIGTA developed a specialized training program
specifically tailored to prepare its special agents to manage volatile encounters with individuals
who may have a violent anti-government or anti-tax viewpoint and pose a threat to IRS
employees who are attempting to conduct official IRS business. TIGTA was able to develop and
present this essential training to almost 100 percent of its front-line special agents before the
commencement of armed escort actions.

TIGTA expects the necessity for armed escorts to increase over time, as the IRS places
additional focus on collection and enforcement activity. Should violence ensue, TIGTA special
agents are trained, ready and able to address the situation as Federal law enforcement officers.
The value of securing the safety of IRS personnel during the course of their official duties is
immeasurable.

Since the April 1, 2009, inception of the Armed Escort Program, TIGTA has conducted 23
armed escort activities.




TIGTA Semiannual Report to Congress                                                     35
April 1, 2009 - September 30, 2009
              TIGTA’S INVESTIGATIVE PERFORMANCE
                           MODEL




TIGTA pursues three mission-critical investigative areas: employee integrity, employee and
infrastructure security, and external attempts to corrupt tax administration. These focus areas,
each subdivided into three components, define and guide the Office of Investigations (OI) in its
decision-making process regarding investigative resources and provides a conceptual and visual
depiction of TIGTA’s investigative jurisdiction for its employees and others.

The model has shown its durability, usefulness, and stamina. Over time, even through strategic
reassessments and changes in administration, the model has anchored OI and provided the
stability necessary for increased success. The model has shown field agents and supervisors
which investigations are critical to pursue. The model has also shown OI senior leadership what
areas need evaluation or budgetary assessment.

For example, the model identified increasing dangers from procurement fraud and threats against
IRS facilities and personnel. In turn, OI senior leadership has sought to increase the scale of OI
involvement in the mission-critical investigative areas of employee and infrastructure security,
fraud and other related crimes, external attempts to corrupt tax administration, and threat and
assault investigations.




36                                                   TIGTA Semiannual Report to Congress
                                                        April 1, 2009 - September 30, 2009
Procurement Fraud
Contract fraud can be defined as the corruption of the Federal acquisition process, either by
internal or external parties, in such a way that the Government is harmed through overcharges,
unallowable fees, and/or defective products or services, as it seeks to use third party vendors to
meet organizational needs.

Contract expenditures constitute nearly 20 percent of the IRS’s annual budget of approximately
$12 billion. During FY 2008, the IRS spent approximately $1.9 billion to procure various goods
and services. Significantly, the vast majority of IRS acquisition activities concern the
development, implementation and maintenance of over 450 data systems used to conduct its tax
administration responsibilities.

TIGTA investigates a wide variety of contract fraud allegations. The most common ones are:

       ¾ Product Substitution: This occurs when the contactor substitutes one product for
         another (usually of lesser value) and the Government pays for the higher-valued item.

       ¾ Labor Cost Mischarging: This occurs between cost-reimbursement and fixed-price
         contracts in which the contractor “shifts” costs (usually in the form of labor hours) from
         the fixed-price contract (usually with another government or private sector entity) onto
         the government-held cost-reimbursement contract. Additionally, a contractor can
         mischarge the Government by including unallowable costs (such as alcohol or lobbying
         expenses) within overhead rates or fictional expenses in order to pass along these costs to
         the Government.

       ¾ Defective Pricing: This occurs when the contractor submits inaccurate cost and pricing
         data to the Government. This is often “hidden” from view until an audit or contract
         closeout activity identifies the actual costs the contract incurred.

       ¾ Antitrust Violations: This occurs when contractors agree to enter into collusive bidding
         or price fixing in order to limit competition and place the Government at an unfair
         disadvantage in obtaining the most competitive price. These activities results in higher
         costs for the Government and damage the public’s confidence in the fairness of the
         procurement process.

       ¾ False Claims Act Qui Tam Provisions: The False Claims Act (FCA)22 provides for
         liability for triple damages and a penalty from $5,500 to $11,000 per claim for anyone
         who knowingly submits or causes the submission of a false or fraudulent claim to the
         United States.

This law, first passed during the Civil War, includes an ancient legal device called a “Qui Tam”
provision—from the Latin phrase meaning “he who brings a case on behalf of the king as well as
for himself.” This allows for a private person called a “relator” to bring a lawsuit on behalf of
the United States, when the person has information that the defendant knowingly submitted or

22
     31 U.S.C. § 3729 et seq.

TIGTA Semiannual Report to Congress                                                       37
April 1, 2009 - September 30, 2009
caused the submission of false claims. The relator need not have been personally harmed by the
defendant’s conduct.

The FCA has a very detailed process for the filing and pursuit of these claims. The complaint
must be filed “under seal,” which means that all records relating to the case must be kept on a
secret docket by the Clerk of the Court. Copies of the complaint must be given only to the
Department of Justice (DOJ), including the local Assistant United States Attorney (AUSA) and
to the assigned judge of the District Court. The complaint and all other filings in the case remain
under seal for a period of at least 60 days. At the conclusion of the 60 days, DOJ must, if it
wants the case to remain under seal, file a motion with the District judge showing “good cause”
as to why the case should remain under seal. Typically, these motions request an extension of
the seal for six months at a time.

In addition to the complaint filed with the District Court, the relator must serve upon DOJ a
“disclosure statement” containing substantially all evidence in their possession about the
allegations in the complaint. This disclosure statement is not filed in any court and is not
available to the named defendant.

The DOJ attorney assigned to a Qui Tam complaint must diligently investigate the allegations of
violations of the FCA. Often this will involve multiple law enforcement organizations such as
TIGTA, the Postal Inspection Service, and the Federal Bureau of Investigation. In some cases
where State agencies are the victims, the States’ attorneys general will participate in the
investigation with the Federal agencies.

The investigation will often involve specific investigative techniques, including subpoenas for
documents or electronic records, witness interviews, or compelled oral testimony. Government
participation in these lawsuits generally results in the relator receiving 15 to 25 percent of any
financial settlement. According to DOJ information, of the $1.4 billion in settlements and
judgments received in 2005, $1.1 billion is associated with suits initiated by whistleblowers
under the FCA’s Qui Tam provisions.

The following case study is an example of a procurement fraud investigation TIGTA conducted:

U.S. Awarded a Final Judgment Against RGI, CSM and John Rachel
According to the evidence presented at trial, in 1995 the IRS entered into a contract with a
company to repair laptop computers used by the IRS throughout the country. The contract called
for the company to charge the IRS a fixed hourly rate plus the actual cost of parts used in the
repairs. The contractor subcontracted most of the work to RGI.

Testimony showed that RGI contracted with a third party to perform certain repairs to the IRS
laptops. Instead of billing the actual cost of the third party’s work, John Rachel and RGI
artificially inflated these costs by claiming that a shell company, CSM, had actually performed
this work. When questioned about these transactions, Rachel and RGI provided the IRS with
phony invoices reflecting that the work had been done by CSM at prices much higher than was
actually charged by the true vendor. Trial testimony showed that the IRS paid an additional
$428,532 under the contract as a direct result of the fraudulently inflated invoices.


38                                                    TIGTA Semiannual Report to Congress
                                                         April 1, 2009 - September 30, 2009
On March 16, 2009, a final judgment against RGI, CSM, and John Rachel awarded the U.S.
Government $1,285,597 in treble damages and a civil penalty of $385,000.

Threats and Assaults Against Internal Revenue Service Facilities and
Personnel
TIGTA works to ensure that the IRS operates in an environment free from threats, assaults, and
critical infrastructure sabotage. To accomplish this mission, TIGTA relies on its Criminal
Intelligence Program (CIP) for comprehensive intelligence gathering capabilities to combat the
activities of individuals and groups who pose a potential threat to the IRS.

The CIP obtains and analyzes intelligence information by leveraging the resources of the law
enforcement and intelligence communities. The CIP has access to intelligence information and
various databases through its presence on the national Joint Terrorism Task Force and local Joint
Terrorism Task Forces throughout the county. The CIP researches, analyzes and disseminates
intelligence information in support of mission requirements.

TIGTA is uniquely positioned, through its work with potentially dangerous taxpayers and
intelligence gathering, to curtail or prevent criminal activity targeted at the IRS’s efforts to
collect revenue. For example, special agents of the CIP previously learned that a large war-tax
protest organization was organizing various anti-war/anti-government groups to participate in a
blockade of the IRS headquarters. The CIP special agents worked with their law enforcement
counterparts and IRS staff in an effort to minimize the disruptive impact of the protest. Thirteen
TIGTA special agents were assigned to the protest to collect intelligence, monitor the crowds,
and to provide emergency response assistance, if necessary. During this event, approximately
300-400 people protested and attempted to block access to the entrances of IRS headquarters.
Numerous protestors climbed over the barricades, refused to adhere to law enforcement
warnings, and attempted to turn away IRS employees. Thirty-two individuals were arrested as a
result of this incident.

Employee Integrity Investigations
IRS employee misconduct negatively affects the image and mission of the IRS. TIGTA is
charged with addressing IRS employee misconduct. OI investigates allegations such as
extortion, bribery, theft, abusive treatment of taxpayers, false statements, financial fraud, and
unauthorized access (UNAX) to confidential taxpayer information, including contractor
misconduct and fraud.

UNAX is a persistent vulnerability for the IRS and the Federal tax system. The IRS is entrusted
with properly maintaining and safeguarding sensitive taxpayer information, including personally
identifiable information—the loss or misuse of which could result in identity theft and other
fraudulent activity. The Federal tax system is based on voluntary compliance, and public
confidence that the personal and financial information given to the IRS for tax administration
purposes will be kept confidential is essential to that system. Even when unauthorized access
does not involve unauthorized disclosure of taxpayer information by an IRS employee,
unauthorized accesses undermine taxpayer confidence in the tax administration system. OI has
specific programs to protect the privacy, integrity, and availability of this sensitive information.


TIGTA Semiannual Report to Congress                                                        39
April 1, 2009 - September 30, 2009
During this reporting period, OI completed 959 employee integrity investigations, of which 270
were UNAX investigations. Also, during the same period, OI investigations resulted in 23
criminal prosecutions and 680 administrative disciplinary actions against IRS employees.

The following cases are examples of IRS employee and contractor integrity investigations TIGTA
conducted during this period:

Albert Bront Charged with Threatening to Assault and Murder Federal Law Enforcement
Officers
On July 28, 2009, in California, Albert Bront was charged with threatening to assault and murder
Federal officers.23 Bront, an Internal Revenue Service Revenue Agent, was being investigated
for filing false tax returns. The investigating agent obtained information that Bront was “bi-
polar” and had a “temper”. The investigating agent also learned that Bront had three firearms
registered to him.24

During the execution of a search warrant at Bront’s residence, witnesses reported that Bront said
something to effect of “I’m going to kill you” to the agents. Bront later admitted to making the
threats to kill the agents and to knowing that the agents were the police.25

Bront threatened to assault and murder two TIGTA Special Agents and one IRS Criminal
Investigation Division Special Agent. Bront’s threat was made with the intent to intimidate the
Special Agents and retaliate against them for the performance of their official duties.26

Edith Squillace Charged with Attempted Extortion
On July 8, 2009, IRS employee, Edith Squillace, was charged with attempted extortion.
Squillace was involved in a private-party small claims court civil case in the amount of
approximately $3,750. Squillace attempted to commit an act of extortion by demanding that her
victim abandon repayment of approximately $3,750 of personal loans made to Squillace under
the threat of an IRS audit. 27

Frank Auerbach Charged with Unauthorized Inspection of Tax Return Information
On April 29, 2009, Frank Auerbach, an IRS employee, was charged in California with
intentionally exceeding his authorized access to a computer and obtaining information of 21
individuals. Auerbach was also charged with inspecting a private individual’s tax return
information without authorization.28

IRS Employee Charged with Injuring Government Property
On May 26, 2009, IRS employee, Michael Hicks, was charged with injuring government
property. After having received a complaint that someone had urinated in a freight elevator at
the Detroit Enterprise Computing Center, TIGTA reviewed the images stored in a surveillance

23
   Source:   Central District of California Indictment filed July 28, 2009.
24
   Source:   Central District of California Affidavit in Support of a Criminal Complaint dated July 14, 2009.
25
   Ibid.
26
   Source:   Central District of California Indictment filed July 28, 2009.
27
   Source:   Northern District of California Indictment filed July 8, 2009.
28
   Source:   Eastern District of California Information dated April 29, 2009.

40                                                                TIGTA Semiannual Report to Congress
                                                                     April 1, 2009 - September 30, 2009
camera that monitored the elevator from which the complaint emanated. The images revealed
that a man, later identified as Hicks, urinated in the freight elevator numerous times between
October 10, 2007 and October 31, 2007.29

During an interview with a TIGTA special agent, Hicks admitted to urinating in the elevator and
stated that he did so because he felt he could get away with it. Due to Hick’s urination, the IRS
incurred a deep cleaning expense of $4,626.25.30

Employee and Infrastructure Security
Threats to and assaults of IRS employees decrease the morale of IRS employees and affect the
Federal Government’s ability to collect tax revenue. TIGTA protects revenue collection by
investigating threats to IRS employees, physical infrastructure, and information systems.

During this reporting period, OI completed 588 employee and infrastructure security
investigations. These investigations resulted in eight criminal prosecutions. Also, between April
1, 2009 and September 30, 2009, 23 armed escort activities occurred.

The following case is an example of an employee and infrastructure security investigation
TIGTA conducted during this reporting period:

John Barker Sentenced for Mailing a Threatening Communication to the IRS
On August 11, 2009, John Barker was sentenced in Kansas to one year and one day in prison and
two years supervised release.31 On May 11, 2009, Barker pleaded guilty to mailing a threatening
communication to the Internal Revenue Service (IRS).32

On Sunday, June 22, 2008, an envelope containing a white power and a threatening letter was
opened at the IRS processing center in Austin, Texas. The letter inside the envelope stated
“YOU HAVE BEEN EXPOSED TO ANTRAX DIE! [sic]” The local fire department
HAZMAT team was contacted, retrieved the letter and transported it to the Laboratory Response
Network laboratory. The laboratory found no anthrax in their initial test of the powder.33

The postage used to mail the threat letter was purchased at an Automated Postal Center located
in Shawnee, Kansas. The U.S. Postal Inspection Service identified the credit card number used
to purchase the postage and Barker was identified.34

On July 21, 2008, Barker provided fingerprints and handwriting exemplars pursuant to a
subpoena. In addition, Barker provided a written statement admitting he mailed the anthrax
threat letter and explained the white substance was baby powder.35


29
   Source: Eastern District of Michigan Affidavit in Support of a Criminal Complaint dated May 26, 2009.
30
   Ibid.
31
   Source: District of Kansas Judgment in a Criminal Case filed August 11, 2009.
32
   Source: District of Kansas Plea Agreement filed May 11, 2009.
33
   Ibid.
34
   Ibid.
35
   Ibid.

TIGTA Semiannual Report to Congress                                                                   41
April 1, 2009 - September 30, 2009
An examination of the handwriting exemplar, threat letter and envelope, and fingerprints
provided by Barker revealed that Barker prepared the envelope and threat letter and that the print
on the envelope was made by Barker.36

External Attempts to Corrupt Tax Administration
External attempts to corrupt the administration of Internal Revenue laws diminish the IRS’s
ability to collect revenue and accomplish its core mission. TIGTA investigates these external
attempts to corrupt or impede the administration of Internal Revenue laws. Investigations in this
area include:

     •   Taxpayers offering bribes to IRS employees;
     •   Use of fraudulent IRS documentation;
     •   Phishing schemes;
     •   Impersonation of IRS officials (in person, telephonically, or via the Internet); and
     •   Corruption of IRS programs or operations through procurement or contractor fraud.

During this reporting period, OI completed 365 external attempts to corrupt tax administration
investigations. These investigations resulted in 35 criminal prosecutions.

The following cases are examples of investigations of external attempts to corrupt Federal tax
administration that TIGTA conducted during this period:

Maxim Maltsev Arrested Upon Arrival at Los Angeles Airport37
On April 29, 2009, Maxim Maltsev of Novosibirsk, Russia, was arrested upon his arrival in the
United States at the Los Angeles International Airport. Maltsev was charged in an Indictment by
a Federal Grand Jury on April 16, 2009.38

Maltsev is charged with Conspiracy to Defraud the United States regarding a scheme, in which
he participated with co-conspirators to defraud the IRS and U.S. taxpayers by fraudulently
obtaining Federal income tax returns before they were filed electronically with the
IRS. Without the permission of the taxpayers, Maltsev and the co-conspirators fraudulently
changed the income tax returns to re-direct the tax refund payments to bank accounts controlled
by him and other co-conspirators.39

The IRS sponsors a program known as “Free File,” which is a free Federal tax preparation and
electronic filing program for eligible taxpayers. The IRS has approved 19 Free File affiliates
who provide online return preparation and e-filing with the IRS.40 As part of the conspiracy,
Maltsev and his co-conspirators would engage in phishing; that is, members of the conspiracy
would create fake Web sites that misrepresented themselves as accredited and authorized to
electronically file Federal tax returns. Maltsev and his co-conspirators would advertise these


36
   Ibid.
37
   Source: Southern District of California News Release dated April 30, 2009.
38
   Ibid.
39
   Source: Southern District of California Indictment dated April 16, 2009.
40
   Ibid.

42                                                            TIGTA Semiannual Report to Congress
                                                                 April 1, 2009 - September 30, 2009
bogus Web sites on the Internet through various search engines and through unsolicited
electronic mail.41

Maltsev and his co-conspirators would receive Federal income tax returns prepared for electronic
filing by taxpayers who were misled by fraudulent Web sites or electronic mail. The information
was changed to cause any refunds issued by the IRS to be sent to bank accounts opened by
Maltsev and other co-conspirators.42

Approximately 65 Federal income tax refunds, representing approximately $105,000, were
illegally diverted to accounts opened by Maltsev. Those funds were withdrawn by debit and
check cards and by automatic teller machine43 and cash withdrawals in the U.S. and overseas.44

Tu Ky Huynh Sentenced in Representation and Tax Fraud Scheme
Tu Ky Huynh, also known as Tiffany Huynh, was sentenced on June 11, 2009, in California, to
16 months in prison to be followed by three years supervised release and was ordered to pay
$100,545 in restitution and a $2,100 special assessment.45

Huynh made a false and fraudulent representation on Form 2848, Power of Attorney and
Declaration of Representation, that she was qualified to practice as a Certified Public Accountant
when she was not.46

Huynh also prepared Federal tax returns listing various deductions, losses, and credits that she
knew the taxpayers were not entitled to. In doing so, Huynh willfully assisted each of the
taxpayers in the preparation of a false income tax return. The tax loss attributable to Huynh’s
actions was $106,292.47

Lourdes Salazar-Velazquez Sentenced for Falsely Representing Herself as an IRS Employee
On April 6, 2009, Lourdes Salazar-Velazquez was sentenced, in Arizona, to five years probation
and ordered to pay a $1,000 fine and a $100 special assessment.48 Salazar-Velazquez mailed a
letter that represented that she was an IRS Agent acting with the authority of the United States
and authorized to collect debt owed to her, garnish wages, and levy property.49

Shannon Ford and Michael Ford Charged in Fraud Scheme
On April 23, 2009, in California, Shannon Ford and Michael Ford were charged with various
counts, including making false claims to the United States and bank fraud.

The investigation uncovered information indicating Shannon Ford prepared three false tax
returns for victim Corey D. (Last name withheld to protect his identity.) Investigators also

41
   Ibid.
42
   Ibid.
43
   Ibid.
44
   Source:   Southern District of California News Release dated April 30, 2009.
45
   Source:   Central District of California Judgment and Probation/Commitment Order filed June 11, 2009.
46
   Source:   Central District of California Plea Agreement filed March 13, 2009.
47
   Ibid.
48
   Source:   District of Arizona Judgment in a Criminal case dated April 6, 2009.
49
   Source:   District of Arizona Indictment dated December 2, 2008, and Plea Agreement dated April 6, 2009.

TIGTA Semiannual Report to Congress                                                                    43
April 1, 2009 - September 30, 2009
determined that Shannon Ford fraudulently negotiated one of the income tax refund checks (for
tax year 2004 in the amount of $5,437 payable to victim Corey D.). Investigators recovered
photographic evidence of Shannon Ford depositing Corey D.’s falsely endorsed 2004 income tax
refund check into her personal account at Members 1st Credit Union. A review of the 2003,
2004, and 2005 U.S. Individual Income Tax Returns prepared and filed by Shannon Ford for
victim Corey D. indicate that for each year, Ford, in the name of victim Corey D., claimed a
business expense to reduce or eliminate taxable income in order to qualify for a refund. Each tax
return claimed a false loss on a Schedule C, Profit and Loss from Business, which (a) eliminated
or significantly reduced victim Corey D.’s income tax liability and (b) created a fraudulent claim
to the Earned Income Tax Credit (a refundable tax credit) for each tax return. Corey D. informed
investigators that in the tax years 2003, 2004, and 2005, he did not operate any kind of business
that could claim a loss on a tax return. Corey D. further stated that he did not authorize Shannon
Ford to negotiate his income tax refund checks, did not authorize Shannon Ford to change his
address to Ford’s residence address, and he had not seen nor signed the tax returns submitted for
tax years 2003, 2004, and 2005.50

The investigation identified similar fraudulent tax returns (false Schedule C forms) submitted to
the United States by Shannon and Michael Ford on behalf of other victims. Many of the victims
were co-workers (at a Walmart distribution center) of an associate of Shannon Ford. An
additional victim was a co-worker of Michael Ford at Crown Motors. In some cases, the victims
did not receive their tax refunds. Rather, the refunds were misdirected into bank and credit union
accounts of Shannon and Michael Ford. The Fords filed fraudulent income tax refunds claims
totaling $159,308.08. There are at least 20 victims of the Fords’ scheme.51

During an interview with investigators, Michael Ford admitted to recruiting at least one co-
worker to have his tax return prepared by Shannon Ford. Shannon Ford admitted to knowingly
filing false tax returns claiming refunds.52

California Franchise Tax Board Employee Charged with Unauthorized Access to a Computer
On April 29, 2009, Nancy Hudak was charged in the United States District Court for the Eastern
District of California with unauthorized access to confidential taxpayer information on a
California Franchise Tax Board (FTB) computer. As a compliance representative for the FTB,
Hudak intentionally exceeded her authorized access, on 45 occasions, to electronically stored
Federal tax information provided to the California Franchise Tax Board by the IRS.53

Man Pleads Guilty to Conversion of Government Property
On May 20, 2009, in Arizona, Victor Vasquez pleaded guilty to conversion of government
property. Vasquez agreed that in March 2006, the victim paid him to file her 2005 Federal tax
return. The victim provided Vasquez with her bank account information so that her refund could
be direct deposited. Vasquez filed the victim’s return but arranged to have the victim’s refund
deposited into an account he controlled.54

50
   Source:   Eastern District of California Affidavit in Support of a Criminal Complaint dated April 23, 2009.
51
   Source:   Eastern District of California Affidavit in Support of a Criminal Complaint dated April 23, 2009.
52
   Source:   Eastern District of California Affidavit in Support of a Criminal Complaint dated April 23, 2009.
53
   Source:   Eastern District of California Information dated April 29, 2009.
54
   Source:   District of Arizona Plea Agreement filed May 20, 2009.

44                                                               TIGTA Semiannual Report to Congress
                                                                    April 1, 2009 - September 30, 2009
Jose Toro-Mendez Pleads Guilty to Conversion of Funds Belonging to the IRS
On June 25, 2009, in Puerto Rico, Jose Toro-Mendez pleaded guilty55 to two counts of
conversion of funds belonging to the IRS.56 On two occasions, Toro-Mendez converted, to his
own use, taxes paid by another and belonging to the IRS. Toro-Mendez stole approximately
$180,000.57

Vendel Matis Sentenced for Making False Statements to the IRS
On June 26, 2009, in California, Vendel Matis was sentenced to three years probation and
ordered to pay a special assessment of $100.58

Matis was disbarred from the Virginia State Bar on or about May 24, 2001. Since being
disbarred, Matis has never again become a member of any other bar. On or about March 31,
2003, Matis was suspended from representing taxpayers before the IRS by IRS’s Office of
Professional Responsibility.59

After Matis was disbarred in 2001 and continuing through May 2004, Matis submitted to the IRS
90 Forms 2848, in which he falsely claimed to be a licensed attorney authorized to represent
taxpayers before the IRS. Matis pleaded guilty to one count of making a false statement.60

Robert Stockton Sentenced for Theft of Government Property
On July 20, 2009, Robert Stockton was sentenced to 18 months in prison and three years
supervised release for theft of government property.61

Stockton formed the company, The Business Office, in 1985. The Business Office provided
payroll services to its clients. In or about August 2003, Online Business Services, Inc. purchased
The Business Office. Stockton became an employee of Online Business Services and continued
to be responsible for the former The Business Office clients.62

The Business Office and Online Business Services promised its clients it would process their
payroll each payroll period, pay all Federal and State payroll taxes accurately and consistently,
prepare and file quarterly payroll tax returns, and prepare all Internal Revenue Service Forms W-
2, W-3 and 1099.63




55
   Source:   District of Puerto Rico Plea Agreement filed June 25, 2009.
56
   Source:   District of Puerto Rico Information filed June 25, 2009.
57
   Source:   District of Puerto Rico Plea Agreement filed June 25, 2009.
58
   Source:   Central District of California Judgment and Probation/Commitment Order filed June 26, 2009.
59
   Source:   Central District of California Plea Agreement filed November 18, 2008.
60
   Ibid.
61
   Source:   District of New Jersey Judgment in a Criminal Case filed July 21, 2009.
62
   Source:   District of New Jersey Information filed November 20, 2008.
63
   Ibid.

TIGTA Semiannual Report to Congress                                                                    45
April 1, 2009 - September 30, 2009
In or about December 2003, Stockton intentionally filed false IRS Forms 941 that indicated that
the victims were responsible for paying only a fraction of the tax actually due. Online Business
Services did not forward to the IRS the actual amount of payroll tax for each victim and instead
kept the money in an Online Business Services account to be used for other improper purposes.64
The total amount of money improperly withheld from payment to the IRS was $1.8 million.




64
     Ibid.

46                                                   TIGTA Semiannual Report to Congress
                                                        April 1, 2009 - September 30, 2009
                ADVANCING THE OVERSIGHT OF
                   AMERICA’S TAX SYSTEM
TIGTA’s Office of Inspections and Evaluations (I&E), established in March 2008, provides
responsive, timely and cost-effective inspections and evaluations of IRS challenge areas,
providing TIGTA additional flexibility and capability to produce value-added products and
services for improving tax administration.

The Office has two primary product lines: Inspections and Evaluations.

Inspections:
      • Provide factual and analytical information;
      • Monitor compliance;
      • Measure performance;
      • Assess the effectiveness and efficiency of programs and operations;
      • Share best practices; and
      • Inquire into allegations of fraud, waste, abuse, and mismanagement.

Evaluations:

      •   Provide in-depth reviews of specific management issues, policies, or programs;
      •   Address government-wide or multi-agency issues; and
      •   Develop recommendations to streamline operations, enhance data quality, and
          minimize inefficient and ineffective procedures.

The following summaries highlight some of the significant activities the Office has engaged in
during this six-month reporting period:

American Recovery and Reinvestment Act of 2009
The American Recovery and Reinvestment Act (Recovery Act) was signed into law by the
President on February 17, 2009. The Recovery Act is intended to jumpstart the economy, create
or save millions of jobs, and address many of the challenges facing our country.

Inspectors General are responsible for reviewing agency performance and use of Recovery Act
funds. Recovery Act reports produced by Inspectors General are required to be forwarded to the
Recovery Accountability and Transparency Board (the Board). The Board is responsible for
coordinating and conducting oversight of Recovery Act funds in order to prevent fraud, waste
and abuse. The Board is also charged with issuing specific periodic reports and serving as a
central repository for all Recovery Act-related Office of Inspector General reports.

The Recovery Act requires each Federal agency that receives Recovery Act funds to designate a
Senior Accountable Official for Recovery Act activities. Within TIGTA, that responsibility has
been assigned to the Deputy Inspector General for Inspections and Evaluations. The Deputy has
overseen the development of TIGTA’s Recovery Act work plan and reports on the completion of

TIGTA Semiannual Report to Congress                                                    47
April 1, 2009 - September 30, 2009
planned activities and the amount of funds spent by TIGTA to complete those activities. The
Deputy Inspector General also coordinates TIGTA’s activities with the Board.

The I&E staff is administering the Board’s first coordinated survey of Agency Contracting and
Grants staff qualifications. The results of this survey are due to be posted on Recovery.gov in
November 2009.

Taxpayer Assistance Centers
The IRS Wage and Investment Field Assistance Office staffs 401 Taxpayer Assistance Centers
(TACs) in order to provide taxpayers with face-to-face assistance. About 2,100 employees staff
the TACs and work with taxpayers to resolve tax issues, answer tax law questions, make
adjustments to tax accounts, accept completed tax returns and payments, establish payment
agreements for qualified individuals who cannot pay in full, prepare basic individual income tax
returns, and provide various tax forms and publications. In FY 2008, TAC employees assisted
approximately 6.9 million taxpayers.

Our on-site inspections of 59 TACs revealed they generally complied with the policies
prescribed by Field Assistance senior staff. The offices had the required signs listing the services
offered, provided adequate space, and stocked the required forms and publications. During the
inspection, we noted the TACs were clean, well organized, and appeared to run efficiently.

While on-site and in subsequent discussion with Field Assistance managers, TIGTA learned that
the level of uniformed guard service provided varied from location to location. At the time of
TIGTA’s inspection, only 181 locations had some type of on-site uniformed guard service. This
ranged from perimeter security, which requires all visitors be screened upon entering the
building, to having a guard stationed in the actual TAC, or in some cases both. Of the 401
TACs, 220 (55 percent) have no on-site guard service, unlike the Social Security Administration,
which has a policy of providing on-site guard service at its walk-in sites. Instead, the 220 TACs
have a duress alarm system monitored by local police or the Federal Protective Services.

For FY 2009, the IRS expects to spend approximately $6 million for guard service in TACs that
are currently provided guard service. The Physical Security and Emergency Preparedness staff
estimates it would cost $36.2 million to place one guard in each TAC for a full year and up to
$104.1 million to provide full screening at each location. TIGTA recognizes that on-site guard
service does not guarantee there will be no reportable incidents at the TACs; however, TIGTA
believes their presence may provide a significant deterrent effect and result in a reduction in the
number of incidents reported. The report was issued to the IRS on August 21, 2009.

TIGTA recommended that the IRS reemphasize the need for each TAC manager to fully
understand the security measures in place in each office, and that the Commissioner determine
what security policy should be applied to walk-in offices, and whether that should include a
commitment to provide guard service at each walk-in location through general building security
measures or placing a guard in the TAC office. IRS management agreed with TIGTA’s
recommendations and they issued a reminder to reemphasize existing security measures and
identified the security policy to be applied to all TACs. IRS management plans to assess the
feasibility of providing guard service at each TAC by September 2010. TIGTA recognizes that

48                                                     TIGTA Semiannual Report to Congress
                                                          April 1, 2009 - September 30, 2009
implementing the suggested corrective action is not a simple process, but is concerned that if not
implemented by January 2010, the IRS will enter a new filing season with largely the same
conditions and risks as in the last filing season.
Reference No. 2009-IE-R003




TIGTA Semiannual Report to Congress                                                     49
April 1, 2009 - September 30, 2009
50   TIGTA Semiannual Report to Congress
        April 1, 2009 - September 30, 2009
              AWARDS AND SPECIAL ACHIEVEMENTS

                       Special Agent Edward “Bo” Bozak Presented
                             Certificate of Meritorious Service




Left to right: Special Agent Bo Bozak, Acting United States Attorney Channing Phillips, District of Columbia Inspector General Charles
Willoughby


On June 30, 2009, the United States Attorney's Office, District of Columbia, presented TIGTA
Special Agent Edward “Bo” Bozak a certificate of appreciation for meritorious service to the
citizens of the District of Columbia and adherence to the highest standards of professional law
enforcement in the pursuit of justice related to an investigation of an IRS employee who was
involved in a D.C. tax scam.




TIGTA Semiannual Report to Congress                                                                                             51
April 1, 2009 - September 30, 2009
                TIGTA Office of Audit Leadership Conference




Gettysburg, Pennsylvania is the place where 165,000 soldiers met to fight for their beliefs. It is
the place where President Abraham Lincoln helped mend a torn nation with his Gettysburg
Address and the place where millions have stood to reflect on the importance of the events that
occurred there.

It is also the place where the Office of Audit leaders gathered for their leadership training
conference on August 18-20, 2009. Office of Audit leaders discussed the various leadership
styles of the senior military officers in the Battle of Gettysburg. The training also covered other
aspects of leadership, including Transparent Leadership, Ethics, Virtual Workforce, and the 2008
Federal Human Capital Survey and Best Places to Work ranking.




52                                                    TIGTA Semiannual Report to Congress
                                                         April 1, 2009 - September 30, 2009
                                 TIGTA’s Summer Intern Colleagues




Pictured from left to right are Lara Reyna, Gurjas Singh, Daniel Genn, Inspector General J. Russell George, Edward Shiang, William Story, III,
and Breyana Kelly.


During the summer of 2009, TIGTA brought on board a group of talented and energetic students
to work in its various functional areas. The students provided valuable support in the areas of
human capital, personnel security, audit, investigations, information technology and the Office of
the Inspector General.

TIGTA’s interns included: Lara Reyna, Gurjas Singh, Daniel Genn, Edward Shiang, William
Story, III and Breyana Kelly.

TIGTA views its summer intern program as a great way to spread the word about jobs at TIGTA
and as a valuable pipeline for talented and energetic future employees. With this in mind,
TIGTA works hard to ensure that interns have the best summer experience possible.




TIGTA Semiannual Report to Congress                                                                                              53
April 1, 2009 - September 30, 2009
54   TIGTA Semiannual Report to Congress
        April 1, 2009 - September 30, 2009
                           AUDIT STATISTICAL REPORTS
                            Reports with Questioned Costs
TIGTA issued two audit reports with questioned costs during this semiannual reporting period1.
The phrase “questioned cost” means a cost that is questioned because of:
•   An alleged violation of a provision of a law, regulation, contract, or other requirement
    governing the expenditure of funds;
•   A finding, at the time of the audit, that such cost is not supported by adequate documentation
    (an unsupported cost); or
•   A finding that expenditure of funds for the intended purpose is unnecessary or unreasonable.
The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the Government.

                                          Reports With Questioned Costs
                                                                                                 Unsupported
                                                                          Questioned Costs
                Report Category                            Number                                    Costs
                                                                           (in thousands)
                                                                                                (in thousands)
1. Reports with no management decision at
the beginning of the reporting period                           7                    $164,944         $82,147
2. Reports issued during the reporting
period                                                          2                       $927               $0
3. Subtotals (Item 1 plus Item 2)2                              9                    $165,872         $82,147
4. Reports for which a management
decision was made during the reporting
period. 3
   a. Value of disallowed costs                                 2                       $339               $0
   b. Value of costs not disallowed                             1                        $11               $0
5. Reports with no management decision
at the end of the reporting period (Item 3
minus Item 4)                                                   7                    $165,522         $82,147
6. Reports with no management decision
   within 6 months of issuance                                  5                    $164,595         $82,147
1
  See Appendix II for identification of audit reports involved.
2
  Difference due to rounding.
3
  Includes one report in which IRS management allowed part of the questioned cost.




TIGTA Semiannual Report to Congress                                                                   55
April 1, 2009 - September 30, 2009
                           Reports with Recommendations That
                              Funds Be Put To Better Use
TIGTA issued four audit reports during this semiannual reporting period with the
recommendation that funds be put to better use.1 The phrase “recommendation that funds be put
to better use” means a recommendation that funds could be used more efficiently if management
took actions to implement and complete the recommendation, including:

•      Reductions in outlays;
•      Deobligations of funds from programs or operations;
•      Costs not incurred by implementing recommended improvements related to operations;
•      Avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements;
•      Preventing erroneous payment of the following refundable credits: Earned Income Tax
       Credit and Child Tax Credit; and
•      Any other savings that are specifically identified.

The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.

                       Reports With Recommendations That Funds Be Put To Better Use
                                                                                                    Amount
                                       Report Category                                Number           (in
                                                                                                   thousands)
1. Reports with no management decision at the beginning of the
reporting period                                                                          0               $0
2. Reports issued during the reporting period                                             4         $158,901
3. Subtotals (Item 1 plus Item 2)                                                         4         $159,901
4. Reports for which a management decision was made during the
reporting period
    a. Value of recommendations to which management agreed
           i. Based on proposed management action                                         3         $149,901
          ii. Based on proposed legislative action                                        0               $0
    b. Value of recommendations to which management did not
    agree                                                                                 1           $9,000
5. Reports with no management decision at end of the
   reporting period (Item 3 minus Item 4)                                                 0                 $0
6. Reports with no management decision within 6 months of issuance                        0                 $0
1
    See Appendix II for identification of audit reports involved.




56                                                                  TIGTA Semiannual Report to Congress
                                                                       April 1, 2009 – September 30, 2009
           Reports with Additional Quantifiable Impact
                     On Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has identified
measures that demonstrate the value of audit recommendations to tax administration and business
operations. These issues are of interest to IRS and Department of the Treasury executives,
Congress, and the taxpaying public, and are expressed in quantifiable terms to provide further
insight into the value and potential impact of the Office of Audit’s products and services.
Including this information also promotes adherence to the intent and spirit of the Government
Performance and Results Act (GPRA).

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations that
prevent erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for,
frequency of, or time spent on contacts, record keeping, preparation, or costs to comply with tax
laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) granted to
taxpayers by law, regulation, or IRS policies and procedures. These rights most commonly arise
when filing tax returns, paying delinquent taxes, and examining the accuracy of tax liabilities.
The acceptance of claims for and issuance of refunds (entitlements) are also included in this
category such as when taxpayers legitimately assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account information
(privacy). Processes and programs that provide protection of tax administration, account
information and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to reduce
cost while maintaining or improving the effectiveness of specific programs. Resources saved
would be available for other IRS programs. Also, the value of internal control weaknesses that
resulted in an unrecoverable expenditure of funds with no tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance and
integrity of data, including the sources of data and the applications and processing thereof,
used by the organization to plan, monitor and report on its financial and operational activities.
This measure often will be expressed as an absolute value (i.e., without regard to whether a
number is positive or negative) of overstatements or understatements of amounts recorded on
the organization’s documents or systems.
Protection of Resources: Safeguarding human and capital assets, used by or in the custody of
the organization, from inadvertent or malicious injury, theft, destruction, loss, misuse,
overpayment or degradation.



TIGTA Semiannual Report to Congress                                                     57
April 1, 2009 – September 30, 2009
The number of taxpayer accounts and dollar values shown in the following chart were derived
from analyses of historical data, and are thus considered potential barometers of the impact of
audit recommendations. Actual results will vary depending on the timing and extent of
management’s implementation of the corresponding corrective actions, and the number of
accounts or subsequent business activities impacted from the dates of implementation. Also, a
report may have issues that impact more than one outcome measure category.

            Reports With Additional Quantifiable Impact On Tax Administration
                                  Number         Number of                                             Number of
                                                                 Dollar Value
     Outcome Measure Category        of           Taxpayer                                              Hours
                                                                (in thousands)
                                  Reports1        Accounts

 Increased Revenue                                       7               458,312    $    1,690,036
 Revenue Protection                                      4             7,245,060    $    2,076,733
 Reduction of Burden on
 Taxpayers                                               6             1,325,217    $       33,634      27,467,303
 Taxpayer Rights and
 Entitlements at Risk                                    8               553,353    $      190,712
 Taxpayer Privacy and Security                           1                   134
 Inefficient Use of Resources                            7                          $      379,890
 Reliability of Management
 Information                                            12                  1,725   $ 11,787,348
 Protection of Resources                                 0                      0                 0
1
    See Appendix II for identification of audit reports involved.

Management did not agree with the outcome measures in the following reports:
    •    Increased Revenue: Reference Numbers 2009-30-068 and 2009-30-124;
    •    Taxpayer Burden: Reference Numbers 2009-40-072, 2009-30-076, and 2009-40-140;
    •    Taxpayer Rights and Entitlements at Risk: Reference Numbers 2009-40-078 and 2009-30-
         113;
    •    Taxpayer Privacy and Security: Reference Number 2009-30-085; and
    •    Inefficient Use of Resources: Reference Number 2009-40-140.

The following reports contained quantifiable impacts other than the number of taxpayer accounts
and dollar value:
    •    Taxpayer Rights and Entitlements: Reference Numbers 2009-30-089 and 2009-30-115;
         and
    •    Reliability of Management Information: Reference Numbers 2009-10-095, 2009-10-107,
         2009-40-099, 2009-10-097, and 2009-10-121.




58                                                                  TIGTA Semiannual Report to Congress
                                                                       April 1, 2009 – September 30, 2009
                                             Investigations
                                           Statistical Reports
                                           Significant Investigative Achievements
                                            April 1, 2009 – September 30, 2009

       Complaints/Allegations Received by TIGTA
            Complaints against IRS Employees                                                              2,437
            Complaints against Non-IRS Employees                                                          1,975

          Total Complaints/Allegations                                                                   4,412

       Status of Complaints/Allegations Received by TIGTA
            Investigations Initiated                                                                      1,470
                                       1
            In Process within TIGTA                                                                        249
            Referred to IRS for Action                                                                     359
            Referred to IRS for Information Only                                                           824
                                            2
            Referred to a Non-IRS Entity                                                                    3
            Closed with No Referral                                                                       1,114
            Closed with All Actions Completed                                                              393
          Total Complaints                                                                               4,412

       Investigations Opened and Closed
            Total Investigations Opened                                                                   1,812
            Total Investigations Closed                                                                   1,922

       Financial Accomplishments
            Embezzlement/Theft Funds Recovered                                                          $10,906
            Court Ordered Fines, Penalties and Restitution                                            $5,022,220
            Out-of-Court Settlements                                                                        0

          Total Financial Accomplishments                                                             $5,033,126
1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 75 referrals to TIGTA that would more appropriately be handled by the IRS, and, therefore were returned to
the IRS. These are not included in the total complaints shown above.




TIGTA Semiannual Report to Congress                                                                               59
April 1, 2009 – September 30, 2009
                                     Status of Closed Criminal Investigations
                          1                                           Employee        Non-Employee               Total
Criminal Referrals
       Referred – Accepted for Prosecution                                 32                    71                103
       Referred – Declined for Prosecution                                364                   296                660
       Referred – Pending Prosecutorial Decision                           30                    81                111

Total Criminal Referrals                                                  426                   448                874

No Referral                                                               457                   551              1,008
1
    Criminal referrals include both Federal and State dispositions.


                                                   Criminal Dispositions2
                                                                                            Non-
                                                                       Employee                                     Total
                                                                                           Employee
        Guilty                                                            20                   50                   70
        Nolo Contendere (no contest)                                       1                     1                    2
        Pre-trial Diversion                                                4                     2                    6
                              3
        Deferred Prosecution                                               1                     1                    2
        Not Guilty                                                         0                     0                    0
        Dismissed4                                                         1                   10                   11

        Total Criminal Dispositions                                       27                   64                   91
2
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
Investigations table above.
3
  Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain
conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the case. If the
defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.


                       Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                    Total
        Removed, Terminated or Other                                                                               291
        Suspended/Reduction in Grade                                                                               101
        Oral or Written Reprimand/Admonishment                                                                      86
        Closed – No Action Taken                                                                                    69
        Clearance Letter Issued                                                                                     67
        Employee Resigned Prior to Adjudication                                                                     68
        Non-Internal Revenue Service Employee Actions6                                                             350

        Total Administrative Dispositions                                                                        1,032
5
  Final administrative dispositions during the reporting period. This data may pertain to investigations referred administratively
in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations Opened and Closed
table.
6
  Administrative actions taken by the IRS against non-IRS employees.




60                                                                        TIGTA Semiannual Report to Congress
                                                                             April 1, 2009 – September 30, 2009
                                  APPENDIX I
                         STATISTICAL REPORTS - OTHER
     Audit Reports with Significant Unimplemented Corrective Actions
 The Inspector General Act of 1978 requires identification of significant recommendations described in
 previous semiannual reports for which corrective actions have not been completed. The following list is based
 on information from the IRS Office of Management Control’s automated tracking system maintained by
 Treasury management officials.

                 IRS
              Management                             Projected          Report Title and Recommendation Summary
Reference      Challenge                            Completion           (F = Finding No., R = Recommendation No.,
Number           Area                 Issued           Date                             P = Plan No.)
2001-30-052    Tax Compliance        March 2001                  Program Improvements Are Needed to Encourage Taxpayer Compliance
                  Initiatives                                    in Reporting Foreign Sourced Income

                                                      12/15/10   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives on
                                                                 foreign sourced income.
2003-30-176    Tax Compliance       August 2003                  Interest Paid to Large Corporations Could Significantly Increase Under a
                  Initiatives                                    Proposed New Revenue Procedure

                                                      02/15/10   F-1, R-2, P-1. Gather pertinent information concerning the affected proposed
                                                                 procedure to reduce the length of examinations and interest costs by
                                                                 conducting a pilot program to demonstrate the actual benefits that could be
                                                                 achieved.

2004-20-131   Security of the IRS    September                   The Use of Audit Trails to Monitor Key Networks and Systems Should
                                       2004                      Remain Part of the Computer Security Material Weakness

                                                      04/30/12   F-2, R-4, P-1. Develop and implement a reasonable approach for reviewing
                                                                 audit trails over major applications.

2005-40-026   Providing Quality     February 2005                Processes Used to Ensure the Accuracy of Information for Individual
              Taxpayer Service                                   Taxpayers on IRS.GOV Need Improvement
                 Operations
                                                      12/31/10   F-1, R-1, P-4. Develop a process to ensure that only authorized personnel
                                                                 have access to IRS.gov content.
                                                      12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’s content management software
                                                                 application to provide the ability to identify specific content accessed or
                                                                 revised by individual users.

2005-20-024   Security of the IRS    March 2005                  The Disaster Recovery Program Has Improved, But It Should Be Reported
                                                                 as a Material Weakness Due to Limited Resources and Control
                                                                 Weaknesses

                                                      12/31/10   F-1, R-1, P-1, P-5. Report a disaster recovery program material weakness to
                                                                 the Department of the Treasury as part of the IRS’s Federal Managers’
                                                                 Financial Integrity Act of 1982 annual evaluation of controls and include any
                                                                 new or currently underway activities in the corrective action plan.

2005-10-107    Human Capital          July 2005                  Improved Policies and Guidance Are Needed for the Telework Program

                                                      11/30/09   F-1, R-1, P-1. Ensure an IRS-wide Flexiplace Program policy is developed
                                                                 and implemented that addresses all the elements recommended by the Office
                                                                 of Personnel Management.
                                                      11/30/09   F-2, R-2, P-1. Ensure Flexiplace Program training is provided as needed to
                                                                 help address productivity concerns.




 TIGTA Semiannual Report to Congress                                                                                  61
 April 1, 2009 – September 30, 2009
                  IRS
               Management                           Projected              Report Title and Recommendation Summary
Reference       Challenge                          Completion               (F = Finding No., R = Recommendation No.,
Number            Area                Issued          Date                                 P = Plan No.)
2005-10-129    Providing Quality     September                      Progress Has Been Made, but Further Improvements Are Needed in the
               Taxpayer Service        2005                         Administration of the Low Income Taxpayer Clinic Grant Program
                  Operations
                                                     05/31/10       F-1, R-1, P-2. Establish goals and performance measures for the Low
                                                                    Income Taxpayer Clinic program to assist the Congress and IRS in
                                                                    evaluating the success of the program.

2005-10-149     Human Capital        September                      The Internal Revenue Service Does Not Adequately Assess the
                                       2005                         Effectiveness of Its Training

                                                     12/31/09       F-2, R-1, P-2. Ensure all IRS components follow established procedures to
                                                                    evaluate training in order for the IRS to comply with the training assessment
                                                                    requirement of the Federal Workforce Flexibility Act of 2004.
2005-30-154   Processing Returns     September                      The Clarity of Math Error Notices Has Been Improved, but Further
              and Implementing         2005                         Changes Could Enhance Notice Clarity and Reduce Unnecessary Notices
              Tax Law Changes
                During the Tax                       04/15/10       F-1, R-2, P-1. Revise tax statement tables contained on notices to include
                Filing Season                                       specific amounts from at least some line items on which taxpayers made
                                                                    errors on their tax returns.


2006-20-166   Security of the IRS    September                      The Monitoring of Privacy Over Taxpayer Data Is Improving, Although
                                       2006                         Enhancements Can Be Made to Ensure Compliance With Privacy
                                                                    Requirements

                                                     11/15/09       F-2, R-1, P-3, P-4. Initiate a program providing for the routine evaluation of
                                                                    employee training activities relative to current privacy policy requirements
                                                                    and develop a system for the tracking and monitoring of these activities.


2007-40-057    Providing Quality     March 2007                     Steps Can Be Taken to Reduce the Challenges Taxpayers With Vision
               Taxpayer Service                                     Impairments Face When Attempting to Meet Their Tax Obligations
                  Operations
                                                     01/15/10       F-3, R-1, P-1. Provide additional viewing options on IRS.gov, such as
                                                                    scalable fonts, enlarged text size, or background colors to make it more
                                                                    accessible to taxpayers with vision impairments.

2007-30-062     Tax Compliance       March 2007                     Social Security and Medicare Taxes Are Not Being Properly Assessed on
                   Initiatives                                      Some Tips and Certain Types of Wage Income

                                                   P-1: 01/15/10    F-1, R-2, P-1, P-2. Develop a compliance program to ensure the revised
                                                   P-2: 07/15/10    Form 4137 is used effectively to identify and assess the employer’s share of
                                                                    Social Security and Medicare taxes on unreported tip income.
                                                   P-1: 01/15/10    F-3, R-2, P-1, P-2. Develop a compliance program to help ensure only
                                                   P-2: 07/15/10    qualifying individuals use the new form to report wage income and the
                                                                    appropriate amounts of Social Security and Medicare taxes are assessed for
                                                                    self-employed taxpayers or employers that are misclassifying their
                                                                    employees.
2007-10-082      Tax Exempt           May 2007                      Screening Tax-Exempt Organizations Filing Information Provides
                 Organizations                                      Minimal Assurance That Potential Terrorist-Related Activities Are
                                                                    Identified

                                                     01/31/10       F-1, R-1, P-1. Develop and implement a long-term strategy to automate the
                                                                    matching of Forms 1023 and 990 information against a consolidated terrorist
                                                                    watch list to initially identify potential terrorist activities related to tax-
                                                                    exempt organizations.

2007-20-121       Systems            August 2007                    Annual Assessment of the Business Systems Modernization Program
              Modernization of the
                     IRS                             12/31/10       F-1, R-1, P-1. Continue to address Modernization Program corrective
                                                                    actions from TIGTA and Government Accountability Office reports through
                                                                    the Highest Priority Initiatives process.




 62                                                                TIGTA Semiannual Report to Congress
                                                                      April 1, 2009 – September 30, 2009
                 IRS
              Management                          Projected          Report Title and Recommendation Summary
Reference      Challenge                         Completion           (F = Finding No., R = Recommendation No.,
Number           Area               Issued          Date                             P = Plan No.)
2008-40-087   Complexity of the    March 2008                 Individual Retirement Account Contributions and Distributions Are Not
                 Tax Law                                      Adequately Monitored to Ensure Tax Compliance

                                                   12/15/11   F-1, R-1, P-1. Analyze Forms 5498 to identify the causes of the errors and
                                                              possible corrective actions.
                                                   01/15/10   F-2, R-1, P-1. Develop and implement strategies to bring noncompliant
                                                              taxpayers back into compliance.
                                                   01/15/10   F-3, R-1, P-1. Consider using the indicator on the Form 5498, Box 11 to
                                                              identify taxpayers who are subject to required minimum distributions.
                                                   03/15/11   F-3, R-2, P-1. Consider requiring custodians to report estimated required
                                                              minimum distribution amounts on the Form 5498.

2008-40-167    Tax Compliance      August 2008                The Withholding Compliance Program Is Improving Taxpayer
                  Initiatives                                 Compliance; However, Additional Enforcement Actions Are Needed

                                                   12/15/09   F-1, R-1, P-1. Develop a process to identify those employers that do not
                                                              adequately withhold taxes from their employees after receiving a lock-in-
                                                              letter.
                                                   05/15/10   F-1, R-2, P-2. Develop employer examination criteria for referring those
                                                              employers that did not follow lock-in-letter instructions.
                                                   12/15/09   F-1, R-3, P-1. Develop and deliver training to appropriate IRS employees on
                                                              the existing criteria for the current referral process.
                                                   12/15/10   F-1, R-4, P-1. Research and develop criteria that will expand the use of the
                                                              Form W-4 civil penalty beyond the current limitation of referrals and special
                                                              projects.
                                                   12/15/13   F-2, R-1, P-1. Create a single data entry point for processing Withholding
                                                              Compliance Program cases and provide lock-in-letter issuance authority to
                                                              other IRS functions.
2008-40-171   Processing Returns   September                  Most Tax Returns Prepared By a Limited Sample of Unenrolled Preparers
              and Implementing       2008                     Contained Significant Errors
              Tax Law Changes
                During the Tax                     06/15/10   F-1, R-1, P-1. Develop and require a single identification number to control
                Filing Season                                 and monitor all paid preparers.

2008-40-180    Tax Compliance      September                  Most Automated Underreporter Notices Are Correct; However, Additional
                  Initiatives        2008                     Oversight Is Needed

                                                   09/15/11   F-1, R-2, P-1. Simplify the Computer Paragraph 2000 notices issued by the
                                                              Automated Underreporter Program.

2008-40-183   Processing Returns   September                  The 2008 Filing Season Was Generally Successful Despite the Challenges
              and Implementing       2008                     of Late and Unexpected Tax Legislation
              Tax Law Changes
                During the Tax                     01/15/10   F-1, R-1, P-1. Ensure that the computer systems are programmed to identify
                Filing Season                                 taxpayer returns claiming the Qualified Mortgage Insurance Premiums
                                                              deduction with Adjusted Gross Income that exceeds the maximum phase-out
                                                              limitations.

2009-40-024     Erroneous and       December                  The Earned Income Program Has Made Advances; However, Alternatives
              Improper Payments       2008                    To Traditional Compliance Methods Are Needed to Stop Billions of
                                                              Dollars in Erroneous Payments

                                                   04/15/10   F-1, R-1, P-1. Conduct a study to identify alternative processes that will
                                                              expand the IRS’s ability to effectively and efficiently identify and adjust
                                                              erroneous Earned Income Tax Credit (EITC) claims for which data show that
                                                              the taxpayer does not meet the EITC requirements.




 TIGTA Semiannual Report to Congress                                                                              63
 April 1, 2009 – September 30, 2009
                 IRS
              Management                              Projected                  Report Title and Recommendation Summary
Reference      Challenge                             Completion                   (F = Finding No., R = Recommendation No.,
Number           Area                 Issued            Date                                     P = Plan No.)
2009-30-023       Taxpayer          February 2009                         Some Automated Collection System Large-Dollar Cases Were Not Worked
                 Compliance                                               Effectively
                  Initiatives
                                                        01/15/10          F-1, R-1, P-1. Perform an analysis to determine how many cases might have
                                                                          been sent to the Queue prior to meeting the general criteria and sample some
                                                                          of the cases to determine why the cases were moved, and evaluate the current
                                                                          Business Rules and resulting programming that move a case to the Queue
                                                                          automatically.

2009-10-025     Human Capital       February 2009                         An Agency-Wide Recruitment Strategy and Effective Performance
                                                                          Measures Are Needed to Address Future Recruiting Challenges

                                                        10/15/09          F-1, R-1, P-1. Develop an agency-wide recruitment strategy that is tied to
                                                                          organizational objectives and desired outcomes.
                                                        11/15/09          F-1, R-2, P-1. Develop an action plan for each initiative in the new
                                                                          recruitment strategy.
                                                        02/15/10          F-1, R-4, P-1. Update the Internal Revenue Manual guidance to reflect the
                                                                          current recruitment processes.

2009-40-032   Taxpayer Protection   February 2009                         The Process Taxpayers Must Use to Report Complaints Against Tax
                  and Rights                                              Return Preparers Is Ineffective and Causes Unnecessary Taxpayer Burden

                                                        06/15/10          F-2, R-1, P-1. Develop a form, both Web-based and paper, specifically for
                                                                          tax return preparer complaints that routes to the correct function based on
                                                                          type of tax return preparer and includes the items necessary for the IRS to
                                                                          appropriately evaluate the complaint.


2009-10-039   Taxpayer Protection   February 2009                         Tax Practitioners Promoting Abusive Tax Shelters Are Still Able to
                  and Rights                                              Represent Taxpayers Before the Internal Revenue Service

                                                        07/15/10          F-1, R-6, P-1. Develop a methodology to perform proactive analyses of
                                                                          information available from IRS functions to identify and appropriately
                                                                          address licensed tax practitioners engaged in potentially disreputable activity.


2009-10-041     Human Capital       February 2009                         Workforce Planning Efforts Are Hindered by Lack of Comprehensive
                                                                          Information on Employee Skills Levels

                                                        04/15/10          F-1, R-1, P-1. Develop a workable process that can be used for the agency-
                                                                          wide skills gap assessment of Mission Critical Occupations.
                                                    P-1, P-3: 11/15/09    F-1, R-2, P-1, P-2, P-3. Develop a detailed plan to guide the IRS’s overall
                                                      P-2: 11/15/10       skills gap assessment effort and coordinate the multifunctional participation
                                                                          necessary to ensure the success of the effort.

2009-30-052   Processing Returns     March 2009                           Significant Revenue Continues to be Lost Because of Unassessed Failure
              and Implementing                                            to Pay Tax Penalties
              Tax Law Changes
                During the Tax                          10/15/09          F-2, R-1, P-1. Request clarifying legislation to address whether separate
                Filing Season                                             notices must be issued to taxpayers each time Failure to Pay tax penalties are
                                                                          assessed and interest is charged on the penalties.




 64                                                                      TIGTA Semiannual Report to Congress
                                                                            April 1, 2009 – September 30, 2009
                            Other Statistical Reports
            The Inspector General Act of 1978 requires Inspectors General
                           to address the following issues:

                        Issue                                        Result for TIGTA

Access to Information
Report unreasonable refusals of information            As of September 30, 2009, there were no
available to the agency that relate to programs and    instances where information or assistance
operations for which the Inspector General has         requested by the Office of Audit was refused.
responsibilities.
                                                       As of September 30, 2009, one report entitled,
                                                       “The Homeland Security Presidential Directive
Disputed Audit Recommendations
                                                       12 Program Office Has Addressed Prior
Provide information on significant management
                                                       Weaknesses, but Progress Is Slower Than
decisions in response to audit recommendations with
                                                       What Has Been Reported,” (Reference No.
which the Inspector General disagrees.
                                                       2009-20-084) was issued where significant
                                                       recommendations were disputed.

Revised Management Decisions
Provide a description and explanation of the reasons   As of September 30, 2009, no significant
for any significant revised management decisions       management decisions were revised.
made during the reporting period.


Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                                       As of September 30, 2009, there were no
Provide a summary of each audit report issued
                                                       prior reports where management’s response
before the beginning of the current reporting period
                                                       was not received.
for which no management response has been
received by the end of the current reporting period.


Review of Legislation and Regulations
                                                       TIGTA’s Office of Chief Counsel reviewed
Review existing and proposed legislation and
                                                       379 proposed regulations and legislative
regulations, and make recommendations concerning
                                                       requests during this reporting period.
the impact of such legislation or regulations.




TIGTA Semiannual Report to Congress                                                           65
April 1, 2009 – September 30, 2009
TIGTA Semiannual Report to Congress
April 1, 2009 – September 30, 2009
                                         Appendix II
                                        Audit Products
                       April 1, 2009 – September 30, 2009

                                                                                           Audit Products
Reference Number                              Report Title
             April 2009
                 Evaluation of Efforts to Ensure Eligible Individuals Received Their Economic Stimulus
 2009-40-069     Payment (Taxpayer Rights and Entitlements: IRS corrected prior errors resulting in 274,611
                 taxpayers receiving $105,435,753 in economic stimulus payments to which they were entitled)
            May 2009
                 Field Assistance Office Management Information Systems Have Improved, but Enhancements
 2009-40-072     Could Improve Taxpayer Service (Taxpayer Burden: reduced visits to the IRS for 1,075,764
                 taxpayers)
                 Increased Management Oversight of the Sensitive but Unclassified Waste Disposal Process Is
 2009-30-059
                 Needed to Prevent Inadvertent Disclosure of Personally Identifiable Information
 2009-30-070     Fiscal Year 2009 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
                 Statistical Profile of Alleged Political Intervention by Tax-Exempt Organizations in the 2004
 2009-10-080     Election Season (Taxpayer Burden: 15 unclear closing letters; Reliability of Information: 14
                 misclassified examination cases)
                 Fiscal Year 2009 Review of Compliance With Legal Guidelines When Conducting Seizures of
 2009-30-077     Taxpayers’ Property (Taxpayer Rights and Entitlements: 23 taxpayers whose rights could be
                 adversely affected)
 2009-20-079     Initial Efforts to Develop a New Web-based Portal Environment Were Not Successful
 2009-1C-060     Incurred Cost Audit for Fiscal Year Ending December 31, 2006
 2009-1C-061     Audit of Travel Management System
 2009-1C-062     Fiscal Year 2008 Labor Floor Checks
                 Audit of Compliance With Cost Accounting Standard 414, Cost of Money As an Element of the
 2009-1C-063
                 Cost of Facilities Capital
                 Audit of Compliance With Cost Accounting Standard 420, Accounting for Independent
 2009-1C-064
                 Research and Development Costs and Bid and Proposal Costs
                 Noncompliance With Cost Accounting Standard 420, Accounting for Independent Research
 2009-1C-065
                 and Development Costs and Bid and Proposal Costs
                 Noncompliance With Cost Accounting Standard 408, Accounting for Costs of Compensated
 2009-1C-066
                 Personal Absence
 2009-1C-067     Follow-up Audit on Information Technology System General Internal Controls
                 Calendar Year 2006 Noncompliance With Cost Accounting Standard 405, Accounting for
 2009-1C-073
                 Unallowable Costs
                 Audit of Compliance With Cost Accounting Standard 415, Accounting for the Cost of Deferred
 2009-1C-074
                 Compensation
                 Contractor’s Fiscal Years 2006 and 2007 Noncompliance With Cost Accounting Standard 410,
 2009-1C-075
                 Allocation of Business Unit General and Administrative Expenses to Final Cost Objectives
                 Expanded Information Reporting Should Increase the Proper Reporting of Farm Income, but
 2009-30-068
                 Additional Steps Could Be Taken (Increased Revenue: $93.8 million)
                 Elderly Taxpayers Would Benefit by the Internal Revenue Service and Tax Professionals
                 Partnering to Reduce Unnecessary Filings (Taxpayer Burden: 163,836 elderly taxpayers spent
 2009-30-076     $14,550,432 and 1,967,303 hours to file unnecessary returns)




 TIGTA Semiannual Report to Congress                                                                67
 April 1, 2009 – September 30, 2009
                 Fiscal Year 2009 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of
2009-40-078      Illegal Tax Protester and Similar Designations (Taxpayer Rights and Entitlements: 321
                 taxpayer accounts in which an illegal Tax Protestor or similar designation was used)
           June 2009
                 Modernization Program Uncertainties Are Affecting the Account Management Services Project
 2009-20-071     Development
                 Enforcement Actions Were Not Always Timely Initiated When Taxpayers Did Not Respond to
 2009-30-081     Contact Attempts or Missed Deadlines
 2009-30-082     Trends in Compliance Activities Through Fiscal Year 2008
 2009-30-083     Analyzing Taxpayer Errors Can Help to Improve Forms and Instructions
                 Additional Actions Are Needed to Protect Taxpayers’ Rights During the Lien Due Process
                 (Taxpayer Rights and Entitlements: 45,554 notices not sent to authorized representatives and
 2009-30-089     notices were not sent to the updated addresses of 17 taxpayers)
                 An Appropriate Methodology Has Been Developed for Conducting the National Research
 2009-30-086     Program Study to Measure the Voluntary Compliance of Individual Income Taxpayers
 2009-40-087     Inadequate Management Information Has Adversely Affected the Acceptance Agent Program
                 Collection Actions on Abusive Tax Avoidance Transaction Cases Are Generally Effective, but
 2009-30-092     Measures to Evaluate Performance Results Are Needed
                 Invoice Audit of the Financial Statement/Government Accountability Office Audit Support
 2009-10-088     Services Contract – TIRNO-00-D-00022 (Questioned Costs: $781,539)
                 Collection Actions Could Be Accelerated on Some Large Dollar Balance Due Accounts
 2009-30-090     (Increased Revenue: $12.1 million)
                 The Compliance Initiative Projects Program Performed Some Examinations After the Projects
                 Expired or Were Terminated (Taxpayer Privacy and Security: 134 unauthorized examinations;
 2009-30-085     Reliability of Information: updated project status for 517 accounts not reflected on database)
                 The Homeland Security Presidential Directive 12 Program Office Has Addressed Prior
 2009-20-084     Weaknesses, but Progress Is Slower Than What Has Been Reported
                 Fiscal Year 2009 Statutory Audit of Compliance With Legal Guidelines Restricting the Use of
 2009-30-091     Records of Tax Enforcement Results
                 Changing Excise Files Information Retrieval System Development Requirements Resulted in
                 Increased Costs and Schedule Delays (Inefficient Use of Resources: $2,789,133; Reliability of
 2009-20-093     Information: $1,773,187 difference between reported and actual budget)
           July 2009
                 A Corporate Approach Is Needed to Provide for a More Effective Tax-Exempt Fraud Program
2009-10-096
                 (Increased Revenue: $47 million impacting 75 taxpayers)
2009-40-098      Inadequate Data on Paid Preparers Impedes Effective Oversight
                 An Improved Project Management Process Is Needed to Measure the Impact of Research
2009-10-095      Efforts on Tax Administration (Reliability of Information: 16 research activities inaccurately
                 reported)
                 Collection Employees Adhered to Fair Tax Collection Practices in Calendar Year 2008
2009-10-101
                 (Reliability of Information: one incorrectly coded case)
                 Controls Over Real Property Management Have Improved; However, Additional Efforts Are
2009-10-107      Needed to Address Planned Staffing Increases (Funds Put to Better Use: $30 million;
                 Reliability of Information: 64 workstations inaccurately shown in IRS databases)
2009-20-108      Computer System Access Controls Over Contractors Need to Be Improved
                 The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation
2009-10-094      Plan As of December 31, 2008 (Reliability of Information: $41.3 million in unsupported
                 resource estimates)
           August 2009
                 Fiscal Year 2009 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights
                 When Requested to Extend the Assessment Statute (Taxpayer Rights and Entitlements: 474
2009-30-113
                 files not documented to show whether taxpayers or representatives were advised of rights
                 regarding assessment statutes)


68                                                           TIGTA Semiannual Report to Congress
                                                                April 1, 2009 – September 30, 2009
                Potential Opportunities Exist to Enhance the Favorable Productivity Trends for Audits Initiated
2009-30-105
                by the Updated Return Selection Formulas
                The Discretionary Examination Program Performance Results Are Incomplete; Therefore,
                Some Measures Are Overstated and Inaccurate (Reliability of Information: $44,223,984 in
2009-40-099     abated taxes and the audit reconsideration case processing time of 159 cycle days were
                excluded from the management operational report; Taxpayer Burden: 1,692 taxpayers received
                multiple requests for the same information)
                Mortgage Interest Data Could Be Used to Pursue More Nonfilers and Underreporters
2009-40-112
                (Increased Revenue: $1,426,735,748 impacting 136,963 taxpayers)
                Consistent and Effective Management Involvement Is Needed in Resolving Disagreements
2009-30-103
                Over Audit Results
                Changing Strategies Led to the Termination of the My IRS Account Project (Inefficient Use of
2009-20-102
                Resources: $10 million)
                Embedded Quality Is an Effective Measure of Field Collection Program Work, but
2009-30-104
                Improvements Could Be Made
                More Progress Is Needed to Reduce the Millions of Dollars Paid in Interest on Improperly
2009-30-106
                Frozen Refunds (Funds Put to Better Use: $92.6 million)
                To Address Its Human Capital Challenge, the Internal Revenue Service Needs to Focus on Four
2009-10-118
                Key Areas
                Internal Controls for the Volunteer Income Tax Assistance Grant Program Are in Place but
2009-40-125
                Could Be Strengthened
2009-30-114     Deficiencies Exist in the Control and Timely Resolution of Whistleblower Claims
2009-1C-109     Fiscal Year 2007 Corporate Office Incurred Cost Audit
2009-1C-110     Budget and Planning System Controls (Forward Pricing Budget)
2009-1C-111     Budget and Planning System Controls
                Customer Account Data Engine Release 4 Includes Most Planned Capabilities and Security
2009-20-100
                Requirements for Processing Individual Tax Account Information
                Significant Improvements Have Been Made to Protect Sensitive Data on Laptop Computers and
2009-20-120
                Other Portable Electronic Media Devices
           September 2009
                The Office of Disclosure Continues to Improve Upon Its Responses to Taxpayers’ Requests
2009-30-115     Under the Freedom of Information Act (Taxpayer Rights and Entitlements: 114 improperly
                denied or untimely processed FOIA or Privacy Act requests)
                Higher Than Planned Call Demand Reduced Toll-Free Telephone Access for the 2009 Filing
2009-40-127
                Season
                Controls Over the Use of Premium-Class Travel Are Generally Effective, but Did Not Detect
2009-10-117     Some Employees Traveling Without Proper Authorization (Reliability of Information: $50,892
                in premium-class air travel not reported to the Department of the Treasury)
                Progress Has Been Made, but Additional Steps Are Needed to Ensure Taxpayer Accounts Are
2009-20-119
                Monitored to Detect Unauthorized Employee Accesses
                Evaluation of the Planning, Computation, and Issuance of the Recovery Rebate Credit (Funds
2009-40-129     Put to Better Use: $27,300,599; Revenue Protection: $1,576,636,877 impacting 6,387,101
                taxpayers; Taxpayer Rights and Entitlements; $84,565,597 impacting 258,550 taxpayers)
                Repeated Efforts to Modernize Paper Tax Return Processing Have Been Unsuccessful;
2009-40-130     However, Actions Can Be Taken to Increase Electronic Filing and Reduce Processing Costs
                (Inefficient Use of Resources: $333 million)
                Procedures to Address Noncompliance With the Reporting Requirements for Contributions of
                Motor Vehicles Continue to Be Inadequate (Increased Revenue: $85.3 million impacting
2009-30-116
                319,860 taxpayers)

                  Additional Managerial Involvement Is Needed to Promote Consistent Use of Accuracy-Related
                  Penalties (Increased Revenue: $24 million impacting 1,126 taxpayers)
2009-30-124



TIGTA Semiannual Report to Congress                                                                  69
April 1, 2009 – September 30, 2009
              Future Tax Revenues Are at Risk Because Certain Tax-Exempt Bonds May Exceed Annual
2009-10-097   Dollar Limits Without Detection (Reliability of Information: bond data was not always entered
              correctly involving 725 bond returns and $11.7 billion in transcription errors)
2009-40-131   Increased Automated Controls Could Further Improve Accountability Over Manual Refunds
2009-20-136   Annual Assessment of the Business Systems Modernization Program
              Ensuring the Quality Assurance Processes Are Consistently Followed Remains a Significant
2009-40-128
              Challenge for the Volunteer Program
              The Office of Appeals Continues to Improve Compliance With Collection Due Process
              Requirements (Taxpayer Rights and Entitlements: 1,073 Collection Due Process and
2009-10-126   Equivalency Hearing cases that did not contain required or sufficient documentation or with
              Collection Statute date improperly extended; Reliability of Information: 1,193 cases with
              incorrect computer codes)
              The 2009 Filing Season Was Successful Despite Significant Challenges Presented by the
2009-40-142
              Passage of New Tax Legislation
              Taxpayer Information Is at Risk When Copies of Tax Returns and Transcripts Are Ordered
2009-40-140
              (Inefficient Use of Resources: $31,065,455;Taxpayer Burden: 83,910 taxpayer impacted)
              Combat Zone Indicators on Taxpayer Accounts Are Frequently Inaccurate (Increased Revenue:
2009-40-138   $1,100,702 impacting 288 taxpayers; Revenue Protection: 339,027 taxpayers impacted;
              (Inefficient Use of Resources: $2,183,935)
              Inadequate Controls Over Dishonored Checks Put Millions of Dollars at Risk for Erroneous
2009-40-143   Refund Issuance (Revenue Protection: $101,851,265 impacting 13,891 taxpayers; Inefficient
              Use of Resources: $596,540)
              Improvements Are Needed to Ensure the Health Coverage Tax Credit Is Properly Claimed on
2009-40-137
              Tax Returns (Funds Put to Better Use: $9 million)
              Treasury Inspector General for Tax Administration – Federal Information Security
2009-20-145
              Management Act (Non-Intelligence National Security Systems) Report for Fiscal Year 2009
2009-1C-122   Labor Floor Checks
2009-1C-123   Federal Budget and Planning System
              Noncompliance With Cost Accounting Standard 410, Allocation of Business Unit General and
2009-1C-132
              Administrative Expenses to Final Cost Objectives
2009-1C-133   Contractor’s Estimating System
2009-1C-134   Calendar Year 2006 Incurred Cost Rate Proposal (Questioned Costs: $145,605)
              The Taxpayer Advocate Service Should Reevaluate the Roles of Its Staff and Improve the
2009-10-121   Administration of the Taxpayer Advocacy Panel (Reliability of Information: the status of 46
              closed recommendations were incorrectly recorded)
              RECOVERY ACT – The Internal Revenue Service Faces Significant Challenges in Verifying
2009-41-144
              Eligibility for the First-Time Homebuyer Credit
              Controls Over the Contracting Officer’s Technical Representatives Workforce Were
2009-10-139
              Ineffective, Resulting in Significant Risks to the Government
              Improvements Are Needed in the Administration of Education Credits and Reporting
              Requirements for Educational Institutions (Revenue Protection: 398,208,090 impacting
2009-30-141   505,041 taxpayers; Taxpayer Burden: $19 million in postage costs incurred by taxpayers and
              25.5 million hours spent by taxpayers in form preparation; Inefficient Use of Resources:
              $254,631)




70                                                       TIGTA Semiannual Report to Congress
                                                            April 1, 2009 – September 30, 2009
                                  APPENDIX III
                               TIGTA’S STATUTORY
                            REPORTING REQUIREMENTS
TIGTA issued 19 audit reports required by statute dealing with the adequacy and security of IRS technology
during this reporting period. In Fiscal Year (FY) 2009, TIGTA completed its eleventh round of statutory
reviews that are required annually by the IRS Restructuring and Reform Act of 1998 (RRA 98). It also
completed its annual review of the Federal Financial Management Improvement Act of 1996 and its annual
review of the Office of National Drug Control Policy Detailed Accounting Submission and Assertions. The
following table reflects the FY 2009 statutory reviews.


        Reference to                Explanation of the
                                                                           Comments/TIGTA Audit Status
     Statutory Coverage                 Provision

Enforcement Statistics           Requires TIGTA to evaluate     Reference No. 2009-30-091, issued June 2009
                                 the IRS’s compliance with      The IRS did not achieve full compliance with Section
Internal Revenue Code (I.R.C.)   restrictions under section     1204(a) requirements. Violations were identified in
§ 7803(d)(1)(A)(i)               1204 of RRA 98 on the use      seven (1 percent) of the 601 employee or manager
                                 of enforcement statistics to   performance evaluation documents reviewed. In all seven
                                 evaluate IRS employees.        violations, TIGTA found documentation that the managers
                                                                included record of tax enforcement results in the employees’
                                                                performance evaluation documents, evaluated employees on
                                                                the fair and equitable treatment of taxpayers, and prepared
                                                                quarterly self-certifications showing that record of tax
                                                                enforcement results were not used to evaluate employees.




TIGTA Semiannual Report to Congress                                                                            71
April 1, 2009 – September 30, 2009
        Reference to          Explanation of the
                                                                       Comments/TIGTA Audit Status
     Statutory Coverage           Provision

Restrictions on Directly   Requires TIGTA to evaluate
Contacting Taxpayers       the IRS’s compliance with
                                                           Reference No. 2009-30-054, issued March 2009
                           restrictions under I.R.C.
                                                           The IRS has informed taxpayers of their rights related to I.R.C.
I.R.C.                     § 7521 on directly contacting
                                                           §§ 7521(b)(2) and (c) through various publications. However,
§ 7803(d)(1)(A)(ii)        taxpayers who have indicated
                                                           between October 2007 and September 2008, six
                           they prefer their
                                                           complaint/investigation cases closed by TIGTA’s Office of
                           representatives be contacted.
                                                           Investigations found that IRS employees improperly bypassed
                                                           taxpayer representatives and were either counseled or
                                                           reprimanded for their actions.
                                                           Neither TIGTA nor the IRS can provide assurances that
                                                           there were not other potential direct contact violations. IRS
                                                           management information systems do not separately record
                                                           or monitor cases that involve direct contact issues, and there
                                                           is no legal requirement to do so.
                                                           The Internal Revenue Manual (IRM) provides IRS
                                                           employees with directions and explanations of the statutory
                                                           and administrative procedures to follow in their day-to-day
                                                           contacts with taxpayers and their representatives. However,
                                                           the IRS could take better advantage of group manager
                                                           review processes to ensure Examination function employees
                                                           are properly following the direct contact provisions.
                                                           Currently, there is no requirement in the IRM that specifically
                                                           requires Examination function group managers to address direct
                                                           contact issues during reviews even though such reviews are a
                                                           key control component that ensures procedures are followed
                                                           and work is meeting acceptable standards. The requirement
                                                           would also be consistent with IRM guidance for Collection
                                                           function group manager reviews. Most importantly, perhaps,
                                                           the documentation from the reviews could provide needed
                                                           support to provide greater assurances that Examination function
                                                           employees are following the direct contact provisions in their
                                                           day-to-day contact with taxpayers and their representatives.




72                                                           TIGTA Semiannual Report to Congress
                                                                April 1, 2009 – September 30, 2009
        Reference to            Explanation of the
                                                                         Comments/TIGTA Audit Status
     Statutory Coverage             Provision

Filing of a Notice of Lien   Requires TIGTA to evaluate      Reference No. 2009-30-089, issued June 2009
                             the IRS’s compliance with       TIGTA reviewed a statistically valid sample of 125 Federal Tax
I.R.C.                       required procedures under       Liens filed for the 12-month period ending June 30, 2008, and
§ 7803(d)(1)(A)(iii)         I.R.C. § 6320 upon the filing   determined that the IRS mailed all 125 lien notices in a timely
                             of a notice of lien.            manner, as required in I.R.C. Section 6320. However, the IRS
                                                             did not always follow its own regulations and internal
                                                             guidelines for notifying taxpayers’ representatives of the filing
                                                             of lien notices. IRS regulations require that taxpayer
                                                             representatives be given copies of all correspondence issued to
                                                             the taxpayer. For eight of the 27 cases in the statistically valid
                                                             sample where the taxpayer had an authorized representative, the
                                                             IRS did not notify the taxpayer’s representative of the lien
                                                             filing. The IRS did not have an automated process that updated
                                                             taxpayer representative information directly with the system that
                                                             generates the lien notices. TIGTA estimated that 45,554
                                                             taxpayer representatives may not have been provided lien
                                                             notices, resulting in potential violations of the taxpayers’ right to
                                                             have their representative notified of the filing of a lien notice.
                                                             When an initial lien notice is returned because it could not be
                                                             delivered and a different address is available for the taxpayer,
                                                             the IRS does not always meet its statutory requirement to send
                                                             the lien notice to the taxpayer’s last known address. For 234
                                                             (83 percent) of 283 cases in a judgmental sample, employees
                                                             did not timely research IRS computer systems for different
                                                             addresses. In addition, TIGTA identified 17 cases for which a
                                                             new lien notice should have been sent to the taxpayer at the
                                                             updated address because the IRS systems listed the address
                                                             prior to the lien filing. The 17 cases could involve legal
                                                             violations because the IRS did not meet its statutory
                                                             requirement to send lien notices to the taxpayer’s last known
                                                             address.




TIGTA Semiannual Report to Congress                                                                                73
April 1, 2009 – September 30, 2009
        Reference to               Explanation of the
                                                                             Comments/TIGTA Audit Status
     Statutory Coverage                Provision

Extensions of the Statute of    Requires TIGTA to include        Reference No. 2009-30-113, issued August 2009
Limitations for Assessment of   information regarding            Over the past five years, the IRS has improved its compliance
Tax                             extensions of the statute of     with requirements for documenting that taxpayers were
                                limitations for assessment of    informed of their rights to refuse to extend the statue of
I.R.C.                          tax under I.R.C. § 6501 and      limitation or to limit such extension to particular issues or to a
§ 7803(d)(1)(C)                 the provision of notice to       particular period of time. The percentage of case files without
                                taxpayers regarding the right    required documentation decreased from FY 2005 to FY 2008,
I.R.C.                          to refuse or limit the           remaining the same in FY 2009.
§ 6501(c)(4)(B)                 extension to particular issues
                                or a particular period of        For FY 2009, cases files for seven (6 percent) of the
                                time.                            112 tax returns in a statistically valid sample did not contain
                                                                 sufficient documentation to indicate whether taxpayers were
                                                                 advised of their rights before consenting to extend the time to
                                                                 assess tax. In all seven cases, the taxpayers’ representatives
                                                                 signed Consent to Extend the Time to Assess Tax (Form 872)
                                                                 or Consent to Extend the Time to Assess Employment Taxes
                                                                 (Form SS-10), both of which contain a statement detailing the
                                                                 taxpayer’s rights regarding extending the assessment statute of
                                                                 limitation. However, there was no evidence in the case files that
                                                                 the taxpayers themselves were advised of their rights.

                                                                 In addition, the sample included 67 case files with
                                                                 authorizations for third-party representation. TIGTA found that
                                                                 seven (10 percent) of the 67 cases files did not contain sufficient
                                                                 documentation that the taxpayers’ representatives were
                                                                 provided with the required notifications. For these cases, IRS
                                                                 management informed TIGTA that some employees may have
                                                                 overlooked the fact that the required information was not
                                                                 documented in the case file or the documents got separated
                                                                 from the case files.

Levies                          Requires TIGTA to evaluate       Reference No. 2009-30-070, issued May 2009
                                the IRS’s compliance with        The IRS is protecting taxpayers’ rights when issuing
I.R.C.                          required procedures under        systemically generated and manually prepared levies. TIGTA
§ 7803(d)(1)(A)(iv)             I.R.C. § 6330 regarding          reviewed 30 systemically generated levies identified through the
                                levies.                          Automated Collection System and Integrated Collection System
                                                                 and determined that systemic controls were effective to ensure
                                                                 the taxpayers were given notice of their appeal rights at least 30
                                                                 calendar days prior to the issuance of the levies. In addition,
                                                                 TIGTA identified 60 manual levies issued by employees on
                                                                 those same systems and determined that all the taxpayers were
                                                                 given notice of their appeal rights at least 30 calendar days prior
                                                                 to issuance of the levies.




74                                                                 TIGTA Semiannual Report to Congress
                                                                      April 1, 2009 – September 30, 2009
        Reference to               Explanation of the
                                                                             Comments/TIGTA Audit Status
     Statutory Coverage                Provision

Collection Due Process          Requires TIGTA to evaluate        Reference No. 2009-10-126, issued September 2009
                                the IRS’s compliance with         The Office of Appeals has improved its handling of
I.R.C.                          required procedures under         Collection Due Process (CDP) cases when taxpayers
§ 7803(d)(1)(A)(iii) and (iv)   I.R.C. §§ 6320 and 6330           exercised their rights to appeal the filing of a Notice of
                                regarding the taxpayers’ rights   Federal Tax Lien or the issuance of a notice of levy. TIGTA
                                to appeal lien or levy actions.   previously reported that hearing officers were not
                                                                  consistently including impartiality statements in their case
                                                                  files. Although TIGTA’s current review identified the same
                                                                  condition, previously implemented procedures have either
                                                                  reduced or eliminated the number of occurrences in the CDP
                                                                  and Equivalent Hearing cases that were reviewed.

                                                                  However, TIGTA identified errors continuing from previous
                                                                  years where taxpayers may not have received an appropriate
                                                                  or complete response to the issues raised in their appeals,
                                                                  because some case files did not include documentation
                                                                  required to evaluate the completeness of the response. This
                                                                  audit identified the same condition and, as a result, TIGTA
                                                                  could not determine whether the taxpayers’ issues were fully
                                                                  addressed and whether the taxpayers’ rights were potentially
                                                                  violated. In addition, TIGTA identified taxpayer accounts
                                                                  that did not contain the required coding to identify those
                                                                  taxpayers who had exercised their rights for a CDP or
                                                                  Equivalent Hearing case. Finally, TIGTA identified one
                                                                  occurrence where the Collection Statute Expiration Date was
                                                                  incorrectly extended.




TIGTA Semiannual Report to Congress                                                                              75
April 1, 2009 – September 30, 2009
        Reference to                  Explanation of the
                                                                                 Comments/TIGTA Audit Status
     Statutory Coverage                   Provision

Seizures                           Requires TIGTA to evaluate        Reference No. 2009-30-077, issued May 2009
                                   the IRS’s compliance with         TIGTA reviewed a random sample of 50 of the 610 seizures
I.R.C.                             required procedures under         conducted from July 1, 2007, through June 30, 2008, and
§ 7803(d)(1)(A)(iv)                I.R.C. §§ 6330 through 6344       determined that the IRS complied with the numerous legal
                                   when conducting seizures.         and internal guidelines when conducting the majority of
                                                                     seizures. However, in 23 seizures, there were 26 instances
                                                                     in which the IRS did not comply with a particular I.R.C
                                                                     requirement. Because there can be numerous statutory
                                                                     violations on each case, the 26 instances TIGTA identified
                                                                     in the 50 cases represent an error rate of only about 1.5
                                                                     percent. While TIGTA did not identify any instances in
                                                                     which the taxpayers were adversely affected, not following
                                                                     legal and internal guidelines could result in abuses of
                                                                     taxpayers’ rights.

                                                                     After the seizure of property, the IRS is required to provide
                                                                     the taxpayer a Notice of Seizure (Form 2433) that specifies
                                                                     the liability for which the seizure was made and an
                                                                     accounting of the property seized. The liability should be
                                                                     the total amount due for the taxes and tax periods listed on
                                                                     the Levy (Form 668-B). In 11 cases, the Notice of Seizure
                                                                     (Form 2433) provided to the taxpayer did not show the
                                                                     correct liability.

                                                                     Money realized from the seizure of property is required to
                                                                     be applied first to expenses of the seizure and sale, second
                                                                     against any unpaid tax imposed by IRS law against the
                                                                     property seized, and finally against the liability for which
                                                                     the seizure was made. TIGTA identified seven instances in
                                                                     which expenses and proceeds were not properly applied to
                                                                     the taxpayer’s account. There is currently no procedure on
                                                                     the Post-Seizure Review Checklist (Form 13361) to verify
                                                                     that expenses and proceeds are being applied as required.

Taxpayer Designations – Illegal    An evaluation of the IRS’s        Reference No. 2009-40-078, issued May 2009
Tax Protester Designation and      compliance with restrictions      The IRS has not reintroduced past Illegal Tax Protester codes or
Nonfiler Designation               under section 3707 of             similar designations on taxpayer accounts. In addition, IRS
                                   RRA 98 on designation of          publications and the IRM no longer contain any Illegal Tax
I.R.C.                             taxpayers.                        Protester references. However, TIGTA found that out of
§ 7803(d)(1)(A)(v)                                                   approximately 65.3 million records and cases, there were 324
                                                                     instances in which 263 employees had referred to taxpayers as
                                                                     “Tax Protester,” “Illegal Tax Protester,” “Constitutionally
                                                                     Challenged,” or other similar designations in case narratives on
                                                                     the computer systems analyzed.

Disclosure of Collection           Requires TIGTA to review          Reference No. 2009-30-046, issued March 2009
Activities With Respect to Joint   and certify whether the IRS is    IRS procedures provide employees with sufficient guidance
Returns                            complying with I.R.C.             for handling joint filer collection activity information
                                   § 6103(e)(8) to disclose          requests. However, TIGTA could not determine whether the
I.R.C.                             information to an individual      IRS fully complied with I.R.C. § 6103(e)(8) requirements
§ 7803(d)(1)(B)                    filing a joint return on          when responding to all written information requests from
                                   collection activity involving     joint filers. IRS management information systems do not
I.R.C.                             the other individual filing the   separately record or monitor joint filer requests, and there is
§ 6103(e)(8)                       return.                           no legal requirement for the IRS to do so. TIGTA does not
                                                                     recommend the creation of a separate tracking system.




76                                                                     TIGTA Semiannual Report to Congress
                                                                          April 1, 2009 – September 30, 2009
        Reference to                  Explanation of the
                                                                                Comments/TIGTA Audit Status
     Statutory Coverage                   Provision

Taxpayer Complaints                Requires TIGTA to include in      Statistical results on the number of taxpayer complaints
                                   each of its Semiannual            received are shown on page 59.
I.R.C.                             Reports to Congress the
§ 7803(d)(2)(A)                    number of taxpayer
                                   complaints received and the
                                   number of employee
                                   misconduct and taxpayer
                                   abuse allegations received by
                                   IRS or TIGTA from
                                   taxpayers, IRS employees and
                                   other sources.


Administrative or Civil Actions    Requires TIGTA to include         Reference No. 2009-10-101, issued July 2009
With Respect to the Fair Tax       information regarding any         The Fair Tax Collection Practices (FTCP) provisions of
Collection Practices Act of 1996   administrative or civil actions   I.R.C. Section 6304 prohibit employees from using abusive
                                   with respect to violations of     or harassing behavior toward taxpayers when attempting to
I.R.C.                             the fair debt collection          collect taxes. Employees who are found to have violated the
§ 7803(d)(1)(G)                    provision of I.R.C. § 6304,       FTCP statute could be subject to disciplinary action. In
                                   including a summary of such       Calendar Year (CY) 2008, IRS employees in the
I.R.C.                             actions, and any resulting        collection-related job series committed only one potential
§ 6304                             judgments or awards granted.      violation of the FTCP statute. Initially, the IRS coded two
Section 3466 of RRA 98                                               cases as FTCP violations. In the first case, the action taken
                                                                     by management was considered a lesser action and did not
                                                                     qualify as an administrative action. The other case was
                                                                     improperly coded as an FTCP violation and should not have
                                                                     been because it did not involve an employee in a
                                                                     collection-related job series. During the audit, TIGTA
                                                                     recommended the miscoding in the second case be corrected
                                                                     and the IRS corrected the miscoding. In addition, there were
                                                                     no civil actions resulting in monetary awards being paid to
                                                                     taxpayers because of an FTCP violation.

                                                                     It is important that FTCP violations information be accurate
                                                                     since it is needed by IRS management to detect any
                                                                     problems or trends that might exist and properly address
                                                                     them to minimize negative interactions between IRS
                                                                     employees and taxpayers. In previous reports, TIGTA noted
                                                                     the miscoding of a significant number of cases. For
                                                                     example, TIGTA determined that 13 cases were miscoded in
                                                                     CY 2007. As a result, TIGTA previously recommended that
                                                                     improvements be made to ensure that cases are coded
                                                                     correctly. To determine whether the IRS had made
                                                                     improvements, TIGTA reviewed 498 cases in 6 “other case”
                                                                     categories to determine whether there were other instances
                                                                     of FTCP violations that were coded incorrectly. TIGTA’s
                                                                     review determined that the IRS had improved its practices
                                                                     because no additional cases were identified that should have
                                                                     been coded as FTCP violations.




TIGTA Semiannual Report to Congress                                                                                  77
April 1, 2009 – September 30, 2009
        Reference to              Explanation of the
                                                                           Comments/TIGTA Audit Status
     Statutory Coverage               Provision

Denial of Requests for         Requires TIGTA to include
Information                    information regarding
                                                                 Reference No. 2009-30-115, issued September 2009
                               improper denial of requests
                                                                The IRS continued to improve the accuracy and
I.R.C.                         for information from the IRS,
                                                                completeness of its responses to requests for information
§ 7803(d)(1)(F)                based on a statistically valid
                                                                covered by the Freedom of Information Act (FOIA). While
                               sample of the total number of
                                                                improvement was noted, IRS management needs to ensure
I.R.C.                         determinations made by the
                                                                that disclosure personnel continue to follow required
§ 7803(d)(3)(A)                IRS to deny written requests
                                                                procedures on all requests. In 1.3 percent (one of 80 cases)
                               to disclose information to
                                                                of the FOIA/Privacy Act cases TIGTA reviewed,
                               taxpayers on the basis of
                                                                information was improperly withheld from the requestors.
                               I.R.C. § 6103 or 5 U.S.C.
                                                                The error occurred mainly because of inadequate research or
                               § 552(b)(7).
                                                                simple oversight by Disclosure office personnel. The IRS
                                                                adhered to legal requirements under I.R.C. Section 6103 in
                                                                the sample of 77 cases TIGTA reviewed.

                                                                Since FY 2000, the IRS has made significant improvement
                                                                in responding timely to FOIA and Privacy Act requests. For
                                                                example, response to only one (1.3 percent) of the 80 cases
                                                                in TIGTA’s sample was untimely. In TIGTA’s audits over
                                                                the previous nine years, the percentages of untimely
                                                                responses ranged from 1.2 percent to 43.5 percent. The
                                                                increase in responsiveness may, in part, be due to the
                                                                continued decrease in the numbers of FOIA and Privacy Act
                                                                cases received during FY 2008 compared to FY 2007 and
                                                                the prior years this review has been conducted.

Adequacy and Security of the   Requires TIGTA to evaluate       Information Technology Reviews:
Technology of the IRS          the IRS’s adequacy and           Reference Number 2009-20-001, October 24, 2008
                               security of its technology.      Reference Number 2009-20-008, October 31, 2008
I.R.C.                                                          Reference Number 2009-20-022, February 19, 2009
§ 7803(d)(1)(D)                                                 Reference Number 2009-20-051, March 30, 2009
                                                                Reference Number 2009-20-079, May 19, 2009
                                                                Reference Number 2009-20-071, June 9, 2009
                                                                Reference Number 2009-20-093, June 30, 2009
                                                                Reference Number 2009-20-102, August 12, 2009
                                                                Reference Number 2009-20-100, August 28, 2009
                                                                Reference Number 2009-20-136, September 14, 2009

                                                                Security Reviews:
                                                                Reference Number 2009-20-026, December 30, 2008
                                                                Reference Number 2009-20-038, February 13, 2009
                                                                Reference Number 2009-20-045, March 10, 2009
                                                                Reference Number 2009-20-055, March 27, 2009
                                                                Reference Number 2009-20-084, June 25, 2009
                                                                Reference Number 2009-20-108, July 24, 2009
                                                                Reference Number 2009-20-120, August 31, 2009
                                                                Reference Number 2009-20-119, September 9, 2009
                                                                Reference Number 2009-20-145, September 25, 2009




78                                                                TIGTA Semiannual Report to Congress
                                                                     April 1, 2009 – September 30, 2009
        Reference to                    Explanation of the
                                                                                 Comments/TIGTA Audit Status
     Statutory Coverage                     Provision

Federal Financial Management         Requires TIGTA to evaluate       Reference No. 2009-10-094, issued July 2009
Improvement Act of 1996              the financial management         The IRS continues to face challenges with reporting
(FFMIA)                              systems to ensure compliance     complete and verifiable resource estimates in its Federal
                                     with Federal requirements, or    Financial Management Improvement Act (FFMIA)
31 U.S.C. § 3512                     establishment of a               remediation plans. During the review of the IRS’s
                                     remediation plan with            December 31, 2008, FFMIA remediation plan, the IRS was
                                     resources, remedies, and         unable to provide supporting documentation for certain
                                     intermediate target dates to     resource estimates, totaling $41.3 million. In addition,
                                     bring the IRS into substantial   TIGTA found that the IRS did not include complete resource
                                     compliance.                      estimates for several remediation actions included in its
                                                                      December 31, 2008, FFMIA remediation plan. Further, the
                                                                      IRS does not have effective procedures to track and report
                                                                      all open recommendations in its FFMIA remediation plan.
                                                                      Until the IRS develops and completes the necessary
                                                                      remediation actions to address all of the Government
                                                                      Accountability Office’s open findings and
                                                                      recommendations, the IRS will continue to be noncompliant
                                                                      with the FFMIA.

Office of National Drug Control      Requires TIGTA to                Reference No. 2009-10-040, issued January 2009
Policy Detailed Accounting           authenticate the IRS’s           TIGTA determined that the methodology used to prepare the
Submission and Assertions            Office of National Drug          IRS’s FY 2008 ONDCP Detailed Accounting Submission
                                     Control Policy (ONDCP)           and Performance Summary Report was clearly explained
National Drug Enforcement Policy     detailed accounting              and adequately documented. However, TIGTA did identify
21 U.S.C. § 1704(d) and the Office   submission and assertions.       that the performance information reported by the IRS
of National Drug Control Policy                                       included a small number of cases from fiscal years prior to
Circular entitled Annual                                              FY 2008. Specifically, 18 of the 478 convictions reported
Accounting of Drug Control Funds,                                     by the IRS actually occurred prior to the FY 2008 measure.
dated April 18, 2003.                                                 Similarly, three of the 827 ONDCP-related investigations
                                                                      reported as completed in FY 2008 were actually completed
                                                                      prior to FY 2008. Finally, 18 cases the IRS reported as
                                                                      recommended for prosecution, but ultimately resulted in
                                                                      acquittal or dismissal, occurred prior to FY 2008. Complete
                                                                      and reliable financial and performance information is critical
                                                                      to the IRS’s ability to accurately report on the results of its
                                                                      operations to both internal and external stakeholders,
                                                                      including taxpayers.




TIGTA Semiannual Report to Congress                                                                                    79
April 1, 2009 – September 30, 2009
80   TIGTA Semiannual Report to Congress
        April 1, 2009 – September 30, 2009
                                 APPENDIX IV
                            SECTION 1203 STANDARDS
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS employee if there
is a final administrative or judicial determination that, in the performance of official duties, such employee
committed any misconduct violations outlined below. Such termination shall be a removal for cause on charges
of misconduct.

Misconduct violations include:

    •   Willfully failing to obtain the required approval signatures on documents authorizing the seizure of a
        taxpayer’s home, personal belongings, or business assets;
    •   Providing a false statement under oath with respect to a material matter involving a taxpayer or taxpayer
        representative;
    •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any right
        under the Constitution of the United States, or any civil right established under Title VI or VII of the
        Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age Discrimination in
        Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation Act
        of 1973; or Title I of the Americans with Disabilities Act of 1990;
    •   Falsifying or destroying documents to conceal mistakes made by any employee with respect to a
        matter involving a taxpayer or taxpayer representative;
    •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee of the
        IRS, but only if there is a criminal conviction or a final judgment by a court in a civil case, with
        respect to the assault or battery;
    •   Violating the Internal Revenue Code of 1986, as amended (the Code), Treasury regulations, or policies
        of the IRS (including the Internal Revenue Manual) for the purpose of retaliating against, or harassing a
        taxpayer, taxpayer representative, or other employee of the IRS;
    •   Willfully misusing provisions of Section 6103 of the Code for the purpose of concealing information
        from a congressional inquiry;
    •   Willfully failing to file any return of tax required under the Code on or before the date prescribed
        therefore (including any extensions), unless such failure is due to reasonable cause and not to willful
        neglect;
    •   Willfully understating Federal tax liability, unless such understatement is due to reasonable cause and not
        to willful neglect; and
    •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct violations
outlined above. The exercise of this authority shall be at the sole discretion of the Commissioner and may
not be delegated to any other officer. The Commissioner, in his/her sole discretion, may establish a
procedure that will be used to determine whether an individual should be referred to the Commissioner
for determination. Any mitigation determination by the Commissioner in these matters may not be
appealed in any administrative or judicial proceeding.




TIGTA Semiannual Report to Congress                                                                     81
April 1, 2009 – September 30, 2009
82   TIGTA Semiannual Report to Congress
        April 1, 2009 – September 30, 2009
                             APPENDIX V
                        DATA TABLES PROVIDED
                              BY THE IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations Tracking
System (ALERTS) for the period from April 1, 2009, through September 30, 2009. Also, data
concerning substantiated IRS Restructuring and Reform Act of 1998 Section 1203 allegations for
the same period are included. IRS management conducted inquiries into the cases reflected in
these tables.




TIGTA Semiannual Report to Congress                                                  83
April 1, 2009 – September 30, 2009
               Report of Employee Misconduct for the Period
                 April 1, 2009 through September 30, 2009
                     Summary by Disposition Groups
                                  (Table Provided by the IRS)
                                                                    Employee
                                TIGTA          Administrative         Tax         Background
        Disposition                                                                                     Total
                             Investigations       Cases              Matter      Investigations
                                                                     Cases

Removal                                  36                   86             6                 5           133
Separation of Probationary
Employees                                 4                 115              6                17           142
Separation of Temporary
Employees                                                     11             2                 1            14
Resignation/Retirement                   71                 117             22                34           244
Suspensions                             115                 238           113                  8           474
Reprimands                               96                 462           351                 33           942
Counseling                               19                 338           462                 95           914
Alternative Discipline                   22                   86            37                 4           149
Clearance                                71                 192              8                 7           278
Closed Without Action                   178                 265             88               386           917
Closed Without Action
(Caution Statement)                     166                 200             93               209           668
Forwarded to TIGTA                                              8                                               8

Not Otherwise Coded                       2                     4            2                 2            10
Suspended – Waiting
Supplemental                              3                                                                     3
Termination for
Abandonment of Position                                       54                                            54
Termination for Other Than
Job Abandonment                                                 1                                               1
Case Suspended Pending
Employee Return To Duty                   7                                  2                 1            10
Prosecution Pending for
TIGTA ROI’s                              10                                                                 10
Total                                   800                2,177         1,192               802          4,971


 Source: Automated Labor and Employee Relations Tracking System (ALERTS)
 This report is being produced in accordance with 26 USC 7803(d)(2) and §4(a)2 of Treasury Delegation
 Order 115-01, January 14, 1999
 Extract Date: Friday, October 02, 2009     Report ID = T1R3a




84                                                           TIGTA Semiannual Report to Congress
                                                                April 1, 2009 – September 30, 2009
                Report of Employee Misconduct for the Period
                  April 1, 2009 through September 30, 2009
                              National Summary
                                  (Table Provided by the IRS)

                                                                     Cases Closed
                                       Conduct
      Inventory        Opening                                                                        Closing
                                        Cases                                           Non-
      Case Type       Inventory                        Conduct                                       Inventory
                                       Received                       Duplicates      Conduct
                                                        Issues
                                                                                       Issues

    TIGTA
    Investigations
    ROI1                       484              852          (800)              (2)           (0)            534
    Administrative
    Case2                      860            1,990        (2,177)             (20)           (8)            645
    Employee Tax
    Compliance
    Case3                      640            1,042        (1,192)             (14)           (0)            476
    Background
    Investigations4            209            1,171          (802)              (3)           (0)            575

    Total                    2,193           5,055         (4,971)             (39)           (8)          2,230

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC 7803(d)(2) and §4(a)2 of Treasury Delegation Order 115-
01, January 14, 1999
Extract Date: Friday, October 02, 2009      Report ID = T1R1




1
  TIGTA Investigations - Any matter involving an employee in which TIGTA conducted an investigation into
alleged misconduct and referred a Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged
misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance
program which becomes a matter of official interest.
4
  Background Investigation - Any matter involving an NBIC investigation into an employee’s background that is
referred to management for appropriate action.



TIGTA Semiannual Report to Congress                                                                 85
April 1, 2009 – September 30, 2009
         Summary of Substantiated I.R.C. § 1203 Allegations
               Recorded in ALERTS for the Period
             April 1, 2009 through September 30, 2009
                                       (Table provided by the IRS)

                                                                       Removed                            In
     § 1203                             Resigned/       Probation                      Penalty
                        Removals1                                      On Other                        Personnel         Total
    Violation                            Retired       Separation                     Mitigated1
                                                                       Grounds                          Process

 Seizure Without
 Approval                          0               0              0               0               0                0         0
 False Statement
 Under Oath                        0               0              0               0               0                1         1
 Constitutional &
 Civil Rights
 Issues                            0               0              0               0               0                0         0
 Falsifying or
 Destroying
 Records                           0               0              0               0               0                0         0
 Assault or
 Battery                           0               0              0               0               0                0         0
 Retaliate or
 Harass                            0               0              0               0               0                0         0
 Misuse of § 6103
                                   0               0              0               0               0                0         0
 Failure to File
 Federal Tax
 Return                            2               5              0               4              21               11        43
 Understatement
 of Federal Tax
 Liability                         6               2              0               0              26               14        48
 Threat to Audit
 for Personal
 Gain                              0               1              0               1               0                1         3

 Totals                            8               8              0               5             47                27        95
Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board
records.
Extract Date: Friday, October 02, 2009




    1
        The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party appeal.

    86                                                                TIGTA Semiannual Report to Congress
                                                                         April 1, 2009 – September 30, 2009
                           APPENDIX VI
                  LEGISLATIVE RECOMMENDATIONS
The Inspector General is required by law1 to review existing and proposed legislation and
regulations relating to programs and operations of the establishment for which it provides
oversight and to make recommendations in the semiannual reports to the Congress concerning
the impact of such legislation or regulations on the:
       •   Economy and efficiency in the administration of programs and operations administered
           or financed by such establishment; and
       •   Prevention and detection of fraud and abuse in such programs and operations.




Reference                                                  Audit Report Title and Legislative Recommendation
Number                 Issued
2009-30-083          June 11, 2009      Analyzing Taxpayer Errors Can Help to Improve Forms and Instructions
                                        Recommendation: Legislation is needed to allow for the judicious use of additional colors on tax
                                        returns and instructions to highlight important warnings and information.

2009-40-098          July 14, 2009      Inadequate Data on Paid Preparers Impedes Effective Oversight
                                        Recommendation: Establish a requirement that paid preparers be compliant with their own Federal
                                        tax filing requirements in order to be allowed to prepare tax returns for others for a fee.

2009-30-114         August 20, 2009     Deficiencies Exist in the Control and Timely Resolution of Whistleblower Claims
                                        Recommendation: Legislation is needed to ensure that informants are protected against retaliation by
                                        their employers and to provide specific relief to informants who are retaliated against.

2009-40-130        September 10, 2009   Repeated Efforts to Modernize Paper Tax Return Processing Have Been Unsuccessful; However,
                                        Actions Can Be Taken to Increase Electronic Filing and Reduce Processing Costs
                                        Recommendation: Consider mandating e-filing for all paid preparers.

2009-30-141        September 30, 2009   Improvements Are Needed in the Administration of Education Credits and Reporting Requirements
                                        for Educational Institutions
                                        Recommendations:
                                             •    Provide the IRS with math error authority to disallow claims for the Hope Credit that
                                                  are taken for more years than allowed by law.
                                             •    Enact legislation to either make Form 1098-T useable to the IRS and taxpayers by
                                                  requiring educational institutions to report amounts paid rather than allowing them to
                                                  choose between amounts paid and amounts billed, or relieve educational institutions of
                                                  the burden of producing this form.




1
    5 USC App. § 4(a)(2).

TIGTA Semiannual Report to Congress                                                                                    87
April 1, 2009 – September 30, 2009
88   TIGTA Semiannual Report to Congress
        April 1, 2009 – September 30, 2009
                              List of Abbreviations

ALERTS                      Automated Labor and Employee Relations Tracking System

AMS                         Account Management Services

AUSA                        Assistant United States Attorney

CADE                        Customer Account Data Engine

CCC                         Commodity Credit Corporation

CDP                         Collection Due Process

CIP                         Criminal Intelligence Program

COTR                        Contracting Officer’s Technical Representative

CY                          Calendar Year

DOJ                         Department of Justice

EITC                        Earned Income Tax Credit

FCA                         False Claims Act

FFMIA                       Federal Financial Management Improvement Act

FOIA                        Freedom of Information Act

FTB                         Franchise Tax Board

FTCP                        Federal Tax Collection Practice

FTHC                        First-Time Homebuyer Credit

FY                          Fiscal Year

GPRA                        Government Performance and Results Act

HSPD-12                     Homeland Security Presidential Directive 12

I&E                         Inspections and Evaluations



TIGTA Semiannual Report to Congress                                            89
April 1, 2009 – September 30, 2009
IG               Inspector General

I.R.C. or Code   Internal Revenue Code

IRM              Internal Revenue Manual

IRS              Internal Revenue Service

ITIN             Individual Taxpayer Identification Number

NTA              National Taxpayer Advocate

OA               Office of Audit

OI               Office of Investigations

OMB              Office of Management and Budget

ONDCP            Office of National Drug Control Policy

PII              Personally Identifiable Information

PMO              Program Management Office

RGI              Robert Grieve, International

ROI              Report of Investigation

RRA 98           IRS Restructuring and Reform Act of 1998

SBU              Sensitive But Unclassified

SSN              Social Security Number

TAC              Taxpayer Assistance Center

TAS              Taxpayer Advocate Service

TE/GE            Tax Exempt and Government Entities

TIG              Treasury Office of Inspector General

TIGTA            Treasury Inspector General for Tax Administration




90                                         TIGTA Semiannual Report to Congress
                                              April 1, 2009 – September 30, 2009
UNAX                        Unauthorized Accesses

USC                         United States Code

USSS                        U.S. Secret Service




TIGTA Semiannual Report to Congress                 91
April 1, 2009 – September 30, 2009
